<html>
<title> - CREDIT UNIONS: MEMBER BUSINESS LENDING</title>
<body><pre>[Senate Hearing 112-176]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-176

 
                 CREDIT UNIONS: MEMBER BUSINESS LENDING

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

      EXAMINING THE ISSUE OF CREDIT UNION MEMBER BUSINESS LENDING

                               __________

                             JUNE 16, 2011

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


                 Available at: http: //www.fdsys.gov /



                  U.S. GOVERNMENT PRINTING OFFICE
71-779                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2443544b64475157504c4148540a474b490a">[email&#160;protected]</a>  


            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  TIM JOHNSON, South Dakota, Chairman

JACK REED, Rhode Island              RICHARD C. SHELBY, Alabama
CHARLES E. SCHUMER, New York         MIKE CRAPO, Idaho
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
DANIEL K. AKAKA, Hawaii              JIM DeMINT, South Carolina
SHERROD BROWN, Ohio                  DAVID VITTER, Louisiana
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
HERB KOHL, Wisconsin                 PATRICK J. TOOMEY, Pennsylvania
MARK R. WARNER, Virginia             MARK KIRK, Illinois
JEFF MERKLEY, Oregon                 JERRY MORAN, Kansas
MICHAEL F. BENNET, Colorado          ROGER F. WICKER, Mississippi
KAY HAGAN, North Carolina

                     Dwight Fettig, Staff Director

              William D. Duhnke, Republican Staff Director

                       Charles Yi, Chief Counsel

                   Lynsey Graham Rea, Senior Counsel

                     Laura Swanson, Policy Director

                 Andrew Olmem, Republican Chief Counsel

                     Beth Zorc, Republican Counsel

                       Dawn Ratliff, Chief Clerk

                     William Fields, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                        THURSDAY, JUNE 16, 2011

                                                                   Page

Opening statement of Chairman Johnson............................     1
    Prepared statement...........................................    24

Opening statements, comments, or prepared statements of:
    Senator Shelby
        Prepared statement.......................................    24
    Senator Schumer
        Prepared statement.......................................    25

                               WITNESSES

Deborah Matz, Chairman, National Credit Union Administration.....     2
    Prepared statement...........................................    26
    Responses to written questions of:
        Senator Merkley..........................................    95
Bill Cheney, President and Chief Executive Officer, Credit Union 
  National Association...........................................    10
    Prepared statement...........................................    47
    Responses to written questions of:
        Senator Merkley..........................................    97
Noah Wilcox, President and Chief Executive Officer, Grand Rapids 
  State Bank, on behalf of Independent Community Bankers of 
  America........................................................    12
    Prepared statement...........................................    81
    Responses to written questions of:
        Senator Merkley..........................................    97
Michael Lussier, President and Chief Executive Officer, Webster 
  First Federal Credit Union, on behalf of the National 
  Association of Federal Credit Unions...........................    14
    Prepared statement...........................................    84
    Responses to written questions of:
        Senator Merkley..........................................    98
Stephen P. Wilson, Chairman and Chief Executive Officer, LCNB 
  National Bank, on behalf of the American Bankers Association...    16
    Prepared statement...........................................    88
    Responses to written questions of:
        Senator Merkley..........................................    98

              Additional Material Supplied for the Record

Letter submitted by Paul Hazen, President and Chief Executive 
  Officer, National Cooperative Business Association.............    99

                                 (iii)


                 CREDIT UNIONS: MEMBER BUSINESS LENDING

                              ----------                              


                        THURSDAY, JUNE 16, 2011

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10:09 a.m., in room SD-538, Dirksen 
Senate Office Building, Hon. Tim Johnson, Chairman of the 
Committee, presiding.

           OPENING STATEMENT OF CHAIRMAN TIM JOHNSON

    Chairman Johnson. Good morning. I want to welcome and thank 
our witnesses for being here today to testify on the issue of 
credit union member business lending. While we wait for the 
Ranking Member to make his appearance, I will go ahead and 
start.
    Under the Federal Credit Union Act, credit unions are 
limited in the amount of business lending they are permitted to 
engage in. The aggregate amount of member business loans made 
by a credit union is restricted to the lesser of 1.75 times the 
credit union's net worth or 12.25 percent of the credit union's 
total assets. The member business lending cap was put in place 
in 1988 with the passage by Congress of the Credit Union 
Membership Access Act. Since that time, the credit union 
industry has advocated for a removal of or an increase in the 
business lending cap. Senator Mark Udall has introduced 
legislation that would raise the cap to 27.5 percent of total 
assets.
    There is a wide range of views on this matter, especially 
as Congress considers proposals to speed the economic recovery. 
I think that it is important that we take the time to examine 
this issue here in the Committee and provide the opportunity 
for all sides to fully express their views on this subject. I 
look forward to your testimony, Chairman Matz, to our other 
witnesses' testimony, and to the question-and-answer period.
    I see there are not any other Members present.
    Debbie Matz has been the Chairman of the National Credit 
Union Administration since August of 2009. Prior to her 
appointment, she was the executive vice president and chief 
operating officer of Andrews Federal Credit Union of Suitland, 
Maryland. Chairman Matz has also served as a board member at 
NCUA from January 2002 to October 2005.
    Chairman Matz, welcome and please proceed.

STATEMENT OF THE DEBORAH MATZ, CHAIRMAN, NATIONAL CREDIT UNION 
                         ADMINISTRATION

    Ms. Matz. Thank you, Chairman Johnson. I appreciate this 
opportunity to discuss credit union member business lending 
legislation, regulation and supervision, and the significance 
of such lending for small businesses.
    Credit unions have always offered member business loans. In 
the industry's early days, business loans primarily supported 
agriculture. But over time, business lending has evolved, 
changing with the needs of entrepreneurs who deserve greater, 
not fewer, affordable credit options. Today credit unions have 
more than 167,000 outstanding loans to businesses.
    As a starting point, I see three tangible benefits provided 
by credit union member business lending:
    First, it allows small businesses to obtain reasonably 
priced loans. Simply put, more competition benefits the entire 
marketplace and has a positive effect on the cost and 
availability of credit.
    Second, prudent member business lending strengthens a 
credit union's balance sheet. It diversifies credit union 
portfolios and improves the ability to withstand economic 
cycles.
    Third, member business lending supports communities. It 
spurs job growth and expands consumer access to goods and 
services.
    As the prudential regulator, NCUA recognizes that member 
business lending poses a unique set of risks and requires 
specialized rules and oversight. Our experience has shown that, 
to succeed, credit unions making loans to small businesses need 
to be aware of cash-flow, portfolio management and liability 
issues, to name just a few.
    In response, NCUA has tailored rules to emphasize sound 
underwriting, solid collateral and tested management. These 
criteria form the foundation of prudent lending. NCUA has taken 
great care to ensure that our rules keep pace with the evolving 
marketplace.
    Like other types of loans, member business loan performance 
is cyclical. Recent member business lending trends reflect the 
financial stress of the economic downturn. Member business loan 
delinquencies stood at 53 basis points in 2006, peaked at 3.93 
percent in 2010, and has since improved to 3.76 percent.
    While member business loan delinquencies and charge-offs 
increased during the recent economic downturn, those increases 
primarily resulted from the severe decline in real estate 
values in the five sand States: Arizona, California, Florida, 
Nevada, and Utah. Forty percent of all delinquencies and 49 
percent of all charge-offs are isolated in these five States.
    Nationwide, more than 2,100 credit unions make member 
business loans. This figure has risen nearly 10 percent since 
2006 despite the economic downturn. While nearly 30 percent of 
credit unions underwrite business loans, these loans comprise 
just 1 percent of all commercial lending.
    However, these statistics do not capture the fact that 
credit union member business lending serves an important 
segment of the marketplace: small businesses and entrepreneurs. 
The average member business loan is only $223,000. Of course, 
this average represents a wide range of loans for a variety of 
business purposes.
    On the whole, credit union loans tend to be much smaller 
than other business lenders. For example, credit union loans 
for commercial and industrial purposes, such as building and 
equipment, averaged just $127,000. By comparison, bank loans 
for commercial and industrial purposes averaged $643,000--more 
than 5 times larger than the credit union average.
    To expand credit union service to the business community, 
Senator Mark Udall has proposed legislation, S. 509, to 
increase the permissible level of member business lending from 
12.25 percent of assets to 27.5 percent for credit unions 
meeting high standards. The bill's tiered approach would allow 
healthy, well-capitalized credit unions to increase business 
loans in small, manageable increments.
    These credit unions, however, must first meet stringent 
standards that place a premium on experience and a proven track 
record of successful management.
    Let me assure you, if legislative changes increase the 
current cap, NCUA would promptly revise our regulations to 
ensure that additional capacity in the credit union system 
would not result in unintended safety and soundness concerns. 
NCUA would also remain vigilant in carrying out its supervisory 
authorities with respect to such legislative changes.
    The proposed legislation together with a responsible 
regulatory approach would provide credit unions the opportunity 
to prudently grow their business loan portfolios. In so doing, 
credit unions would increase the diversity in their overall 
loan portfolios, thus reducing concentration risk.
    NCUA regulations require any credit union that is less than 
adequately capitalized to suspend business lending. I am 
pleased that S. 509 would adopt a similar safeguard.
    In sum, S. 509 is a well-conceived, balanced approach to 
making more capital available to small businesses while 
ensuring that these loans are made in a prudent manner, 
consistent with each credit union's capabilities.
    Entrepreneurs work hard, take risks, and put people to 
work. To fulfill their dreams, they need capital. Credit unions 
have long met the capital needs of small businesses. Credit 
unions are frequently the only lenders willing to make small 
loans to open a car repair shop, expand a boutique, or start a 
day-care center. The capital provided to hard-working Americans 
enriches lives, provides employment, and reinforces the 
economic base of communities.
    S. 509 would permit credit unions to empower more 
enterprising individuals and meet the needs of more small 
businesses that are expanding and creating jobs and 
opportunities for their communities.
    Thank you, and I look forward to your questions.
    Chairman Johnson. Thank you, Chairman Matz.
    Members will have 5 minutes for questions.
    Chairman Matz, when you testified before the Committee in 
December, your written testimony indicated that the levels of 
delinquent member business loans and charge-offs have 
increased. You also noted an increasing number of large credit 
unions about which the NCUA has supervisory concerns where MBLs 
are the primary or secondary contributing factor with a 
supervisory concern.
    Given these concerns, why do you believe that it is prudent 
to increase the member business lending done by credit unions?
    Ms. Matz. Thank you. Member business lending does have 
higher delinquency and charge-offs than other consumer loans. 
But, in fact, in the last quarter, the delinquencies have 
started to decline. And because delinquencies lead the charge-
offs, we are looking forward to a decline in charge-offs, as 
well.
    But I should point out that if a credit union has 
delinquent loans, that does not necessarily result in a loss. 
Even the charge-offs do not necessarily result in a loss if 
they are well capitalized. So they can have delinquencies and 
charge-offs and still not suffer a loss, if the loans were well 
collateralized. That is part of our supervision to make sure 
that they are.
    But in terms of actual losses, there are about 2,200 credit 
unions making business loans right now. In 2008 and 2009, we 
only had one credit union failure that was primarily 
attributable to member business lending. So, member business 
lending is being done prudently, by and large, and we are 
supervising member business lending in those credit unions that 
engage in business lending very carefully to make sure that 
they have experienced staff and that they are underwriting 
properly.
    Chairman Johnson. Chairman Matz, Senator Udall's 
legislation would require that the NCUA develop a tiered 
approval process by which a credit union gradually increases 
the amount of member business lending it engages in. Have you 
given any thought as to what the tiered process might look like 
and how you might implement it?
    Ms. Matz. Yes. The tiered process will be very helpful in 
terms of increasing our supervisory ability and ensuring safety 
and soundness because credit unions will still be able to make 
loans up to 12.25 percent of assets, but to get above that, 
they will have to meet stringent guidelines. They will have to 
have made business loans for at least 5 years. They will have 
to be well capitalized and well managed. And they will have to 
be at or above 80 percent of the cap.
    But we will come behind that with regulations to ensure 
that even above and beyond that, that the credit unions that go 
above the cap do so in a moderate way, that they crawl before 
they walk. So, we will not necessarily let them go up to 30 
percent of an increase in 1 year. We will probably have 
regulations that modify that and let them increase more 
gradually than that.
    Chairman Johnson. Witnesses on the second panel suggest 
that credit unions are making loans that banks have previously 
turned down. Is that the case? And if so, are you as a 
regulator concerned about the safety and soundness of such 
loans?
    Ms. Matz. Well, from what I hear--and it is anecdotal--
credit unions sometimes do make loans that banks have turned 
down. But, my understanding is it is based on the size of the 
loan and the use of the loan, because what I am told is that 
very small businesses that need small loans do not have 
access--frequently do not have access to banks, and so they 
come to credit unions.
    A credit union average loan is only $223,000, and that 
average, of course, includes much larger loans. So, in fact, 
the median is closer to $127,000. These are very small loans, 
so I am not concerned about the risky nature. As long as the 
credit unions are prudently underwriting the loans. I am not 
concerned that they are approving loans that banks have turned 
down, because I do believe that by and large it is based on the 
size of the loan and not the risky nature of the loan.
    Chairman Johnson. I have an additional question. Member 
business loans often have higher delinquency rates than other 
types of loans. It, therefore, seems counterintuitive for the 
potential regulator to support legislation to increase the 
member business lending cap. Would you provide more details 
about why you support the Udall bill and why you believe that 
the Committee should not view this legislation as a risk?
    Ms. Matz. Thank you. That is a good question because it 
does seem counterintuitive that a regulator who is extremely 
concerned about safety and soundness--and, in fact, that really 
is my sole--almost exclusively my focus--would support 
legislation to raise the cap. But, in fact, I believe that 
raising the cap will enhance safety and soundness because the 
low cap at 12.25 percent is artificially low. There are a 
number of credit unions that would like to get into business 
lending but do not because they do not feel that they will be 
able to recover their investment. But, in fact, business 
lending would help diversify their portfolio.
    Now credit unions are probably overconcentrated in mortgage 
loans, and they also have a lot of car loans, and so I view 
business lending as an opportunity to diversify their 
portfolios and to reduce the concentration of risk in their 
portfolio, and certainly to reduce the interest rate risk which 
they have from long-term mortgages. So I view it as a safety 
and soundness benefit, not as increasing the risk.
    Chairman Johnson. Chairman Matz, what percentage of credit 
unions are currently at the limit and, therefore, constrained 
by the statutory cap?
    Ms. Matz. There is a very small number that are at or near 
the limit. It is under 300 credit unions that are at or near 
the limit.
    Chairman Johnson. Out of how many credit unions?
    Ms. Matz. Out of about 7,300 credit unions. It is a very 
small number, but it is misleading because the cap constrains 
all credit unions.
    There are so many credit unions that are not making 
business loans because of the cap even though they are not near 
it. They just do not want to make the investment, and even some 
credit unions that are making business loans do not really 
market it. They will make business loans to people who walk in 
the door, members who walk in the door and ask for them, but 
they do not market it because they do not want to be in a 
position to have to turn away customers once they get close to 
the cap.
    Chairman Johnson. Senator Bennet.
    Senator Bennet. Thank you, Mr. Chairman, and thank you, 
Chairman Matz, for being here. I have got something a little 
off topic and then something on topic.
    Off topic--it is easy for you--is whether you might talk a 
little bit about how our credit unions fared during this 
economic crisis that we just went through and are sort of 
slowly climbing out of. Could you give us a sense of their 
experience in this period of time?
    Ms. Matz. Certainly, and I will divide that answer into two 
parts--the corporate credit unions and the retail or the 
consumer credit unions.
    The corporate credit unions had a large concentration of 
mortgage-backed securities on their books. As a result, when 
the bond market collapsed, the value of those bonds collapsed. 
We had to place five of those corporate credit unions into 
conservatorship, and it has been a significant crisis that we 
are leading the credit unions out of. We have put into place 
much stronger rules governing corporate credit unions, and at 
this point the corporate system is stabilized. We are beginning 
to feel like we have seen the worst of the corporate situation.
    Right now credit unions are at the point of deciding 
whether to recapitalize the corporate credit unions, and we 
will know that by September. At that point credit unions will 
either get their liquidity and their payment processing through 
corporates or elsewhere. September is the deadline. But we are 
on track, and it has been very effective. There has been no 
interruption of service. Payment systems have been effective, 
and so we are coming out of that. We learned a lot of lessons, 
and as a result we have significantly changed the rules 
governing corporate credit unions.
    The retail or consumer credit unions are also beginning to 
show signs of recovery. The first quarter data for the credit 
unions showed very positive indicators that net worth is up and 
their assets continue to rise. Their delinquencies have started 
to trend down, and so it has been a difficult time, but through 
it all credit unions have continued to lend. From 2007 to 2010, 
lending increased 6 percent, so it is modest. It is down from 
where it was, but they are still continuing to lend. So, I am 
optimistic that the problems have bottomed out and that they 
are starting to recover.
    Senator Bennet. Thank you for that. If Congress did 
increase the cap on member loans--you just testified that only 
about 300, I think, credit unions are close to the cap. How 
many credit unions do you think would take advantage of that? 
Are there some--you have just talked about the distinction 
between corporate and consumer. Are there certain kinds that 
you would expect to be in the business before others? How do 
you see this going if we did this?
    Ms. Matz. Well, I would think that larger credit unions 
that are well capitalized--and by that, I mean credit unions 
that are probably from 50 million and up, or maybe even 100 
million and up--would be more likely to start making business 
loans. There are also those that are making business loans that 
would be inclined to expand it. As I said previously, credit 
unions tend not to market the business loans because of the 
cap, so if the cap were raised, they would be more likely to 
market it and to make more loans. But there are probably about 
2,000 credit unions that are over 50 million in assets that 
would be more likely to take advantage of this if the cap were 
raised.
    Senator Bennet. Thank you, Mr. Chairman. Thank you.
    Chairman Johnson. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Chairlady, how are you?
    Ms. Matz. Good. Good to see you.
    Senator Menendez. Good to see you. You know I have been a 
strong supporter of the credit unions, but I think there are 
some serious questions here. How is it--we will hear from the 
next panel, but I just want to look at a couple of the 
arguments they are presenting and get your sense of it. One is 
that they will say that this legislation would allow a new 
breed of credit union institutions to more aggressively pursue 
business customers through large commercial and real estate 
loans. It would also serve as an invitation to credit unions 
that are not near this cap now to focus on business lending to 
the exclusion, or greater limitation--that is my add-on--of 
consumer lending in order to be eligible for an increase in 
their business lending cap. Are you concerned about that?
    Ms. Matz. Well, I think that it would be an opportunity for 
credit unions to expand their business portfolio, but the loan-
to-share ratio of credit unions is in the high 60s, maybe about 
68 percent. So, there is still a great deal of capacity for 
credit unions to expand business lending and still meet the 
needs of consumers.
    Senator Menendez. What about the fact that credit unions by 
their nature are tax exempt and obviously do not live within 
all of the regulatory requirements that banking institutions 
live under, if we expand the nature of their portfolio, the 
arguments that you have an uncompetitive process because they 
are tax exempt and because they are not subject to all the 
regulatory requirements that a banking institution doing 
similar transactions would be subject to? Is that not a fair 
criticism?
    Ms. Matz. Credit unions are more stringently regulated than 
banks as far as business lending. In fact, in 2001, the 
Treasury Department did a study of credit union member business 
lending, and they said they found no evidence that credit union 
business lending would adversely impact banks. In fact, that 
study found they would increase the competition with small 
banks and the benefit would go to the consumer. So, you know, 
whether credit unions are tax exempt is not something I deal 
with. I deal with safety and soundness issues. But credit 
unions are very tightly regulated in terms of making business 
loans or any loans.
    Senator Menendez. But they are certainly not regulated to 
the same extent that banks are. For example, they do not have 
the community reinvestment responsibilities that banks have.
    Ms. Matz. No, they do not. Credit unions have fields of 
membership, and so they can only serve people in their field of 
membership.
    Senator Menendez. Right. So the question is: What would you 
do if we were to pass this law? How would you go about deciding 
whether it is OK for a credit union to increase its member 
business lending? And if you had to approve applications for 
that, what is the criteria you would use?
    Ms. Matz. Well, we do our exams and they are based on 
safety and soundness. If a credit union has experienced 
commercial lending staff in place and it is a well-managed 
credit union and it is well capitalized, those are the types of 
issues that we would look at.
    Senator Menendez. But right now they have, what, very 
little commercial--other than, you know, auto loans and maybe 
real estate?
    Ms. Matz. There are 2,200 credit unions that make business 
loans.
    Senator Menendez. That make business loans.
    Ms. Matz. Yes.
    Senator Menendez. OK. So that is the universe that would 
more likely be up for the possibility?
    Ms. Matz. Well, I think it would be more than that. I think 
there are credit unions that are not making business lending 
because of the cap that likely would start making those loans. 
Right now, credit unions, I am told, are reluctant to get into 
the business lending business in some cases because they feel 
that they will not get a return on their investment because of 
the cap. It is a sizable investment in terms of the staff and 
the infrastructure that needs to be put in place.
    Senator Menendez. So then on the two questions, you are 
saying that if we were to do this, you are not concerned about 
consumer lending being squeezed out as a result of the credit 
unions' seeking more of the business lending, and you are not 
concerned about overall risk as it relates to taking on an 
expanded portfolio in this regard to the credit unions?
    Ms. Matz. No, I am not.
    Senator Menendez. Thank you, Mr. Chairman.
    Chairman Johnson. Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman. Mr. Chairman, I 
was detained earlier. I ask unanimous consent that my opening 
statement, a lengthy one, be made part of the record.
    Chairman Johnson. It will be received.
    Senator Shelby. Thank you, Mr. Chairman.
    Senator Shelby. Chairman Matz, I am sorry I was not here 
earlier.
    Ms. Matz. That is quite OK.
    Senator Shelby. Congress, as I understand it, originally 
imposed business lending limitations in order to limit 
excessive risk taking--you may have gotten into this. I am not 
sure; I was not here--by credit unions. Do you believe that a 
higher cap on business lending would adversely impact the 
safety and soundness of credit unions? And how would increasing 
the lending limit impact the National Credit Union Share 
Insurance Fund?
    Ms. Matz. I do not believe that increasing the cap would 
adversely impact safety and soundness, and as counterintuitive 
as it might seem, I think it would have a positive----
    Senator Shelby. If not, why not?
    Ms. Matz. I think it would have a positive impact on safety 
and soundness because right now credit unions have a very large 
book of business in mortgages and in auto loans. As we learned 
from this recent economic downturn, concentrations are not good 
for financial institution portfolios. So, being able to add 
business loans----
    Senator Shelby. By concentration, you mean concentrating in 
one product?
    Ms. Matz. Correct. Being able to add business loans to the 
portfolio would actually diversify the portfolio, reduce the 
concentration and, in my opinion, enhance the safety and 
soundness.
    Senator Shelby. Of the 55 credit unions that failed during 
2009 and 2010, twenty underwrote business loans at the time of 
their failure. What role did business lending play in the 
failure of these credit unions? And how did the amount and 
nature of the business loans made by these failed institutions 
compare to those made by healthy credit unions? I know you have 
gone back and looked at this.
    Ms. Matz. Yes. In fact, during that period of time that you 
mentioned, there was only one credit union that failed directly 
as a result of business lending out of the 2,200 credit unions 
that make business loans. There were 55 failures in that time, 
and of those, 20 made business loans, but the business loans--
--
    Senator Shelby. Because there were a lot more failures of 
banks. We know that.
    Ms. Matz. Yes.
    Senator Shelby. During that time.
    Ms. Matz. There were a lot more failures of banks. There 
were only 55 credit union failures in that time.
    Senator Shelby. OK. In your testimony today, you stated 
that 70 percent of all credit unions do not engage in any 
business lending. In addition, you noted that only about 7 
percent of credit unions are close to the cap on business 
lending. Of these few credit unions, nearly two-thirds have 
assets of over $500 million, half a billion dollars. Which 
types of credit unions would benefit the most from an increase 
in the cap? In other words, large credit unions or small credit 
unions? Or do you have any evidence that you can share with the 
Committee that increasing the cap would benefit small credit 
unions? We have a lot of small credit unions.
    Ms. Matz. Well, I would say that the credit unions that 
would benefit the most are probably the ones that are over $50 
million. The ones that are $50 to $100 million, almost half of 
them are making business loans. For the other categories, $100 
million and above, it is a majority of the credit unions. So I 
would say the credit unions most likely to make business loans 
are over $50 million.
    Senator Shelby. When testifying before this Committee last 
year, which was just a few months ago, you noted that for those 
credit unions that engaged in business lending then and had 
poor CAMELS rating, often the business loans wee responsible 
for the low ratings, according to what you testified. How can 
business loans get a credit union into trouble? Or how can they 
avoid trouble, so to speak? And should a credit union be 
required to have a high CAMELS rating before its cap on 
business lending can be increased? In other words, we are 
interested in the safety and soundness of all these 
institutions.
    Ms. Matz. Answering the second part first, yes, I think 
that they should have--particularly on the management, the 
``M'' in the CAMEL, I think that they should have a high CAMEL 
rating in order to go beyond the bottom tier, and----
    Senator Shelby. Well, that is just common sense for safety 
and soundness, isn't it?
    Ms. Matz. Yes. And if this legislation is passed, we will 
quickly implement a new set of regulations to implement the 
statute, and most likely that will be one of the things that we 
include in it.
    Senator Shelby. What is your estimate or your judgment on 
the number of credit unions that are currently not making any 
business loans but will start to make business loans if the cap 
is increased? Do you have a number on that, roughly?
    Ms. Matz. Well, there are about 6,000 credit unions that 
are not exempt from the cap. There are about 1,200 that are 
exempt from the cap for one reason or another. And of the 
6,000, probably 4,000 of them are under $50 million. So, 
probably 2,000, or 2,200 probably benefit from it if they chose 
to.
    Senator Shelby. How much would the business lending cap 
have to increase to basically make it cost-effective for small 
credit unions to engage in business lending? Have you done any 
work in that area?
    Ms. Matz. No, I do not know the answer to that, but for 
small credit unions, they--there are small credit unions that 
engage in business lending, and frequently it is done through 
participation in a loan or through a credit union service 
organization rather than doing it themselves.
    Senator Shelby. Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Chairman Matz.
    Now I would like to welcome the witnesses for our second 
panel.
    Mr. Bill Cheney is president and CEO of the Credit Union 
National Association, which represents most of the Nation's 
nearly 7,800 credit unions. Mr. Cheney became president and CEO 
of CUNA in July 2010 following nearly a quarter century's 
experience in the credit union movement.
    Mr. Noah Wilcox is president and CEO of Grand Rapids State 
Bank. He is also a director and member of the executive 
committee of the Independent Community Bankers of America.
    Mr. Michael Lussier is president and CEO of Webster First 
Federal Credit Union and is also the chairman of the board of 
the National Association of Federal Credit Unions and has over 
25 years of banking and credit union experience.
    Mr. Stephen Wilson is chairman and CEO of LCNB National 
Bank. He is also the recently elected chairman of the American 
Bankers Association.
    I thank all of you again for being here today, and I look 
forward to your testimony. I will ask the witnesses to limit 
your remarks to 5 minutes. Your written statements will be 
submitted for the record.
    Mr. Cheney, would you like to begin?

    STATEMENT OF BILL CHENEY, PRESIDENT AND CHIEF EXECUTIVE 
           OFFICER, CREDIT UNION NATIONAL ASSOCIATION

    Mr. Cheney. Yes, Mr. Chairman, Ranking Member Shelby, 
Members of the Committee, thank you very much for calling 
today's hearing on credit union member business lending.
    Although credit unions weathered the financial crisis well, 
the economy as a whole is struggling. As everyone agrees, more 
needs to be done to help America's small businesses create 
jobs. Credit unions can help if Congress enacts S. 509, Senator 
Mark Udall's Small Business Lending Enhancement Act. This much-
needed, commonsense legislation would increase the statutory 
member business lending cap from 12.25 percent of a credit 
union's assets to 27.5 percent and impose statutory and 
regulatory safeguards on the increased lending to protect the 
Share Insurance Fund from additional risk. These safeguards 
were designed by Treasury and the NCUA. If this legislation is 
enacted, we estimate that credit unions could lend an 
additional $13 billion to their members who own small 
businesses in the first year, helping them to create $140,000 
new jobs without an outlay of a single taxpayer dollar.
    As my written testimony describes, credit unions have 
continued to lend to their members throughout the financial 
crisis, increasing their business lending portfolio by 38 
percent since 2007, while the banks' commercial loan portfolio 
shrank by 5 percent. Currently there are over 330 credit unions 
near the cap, and they account for over half of the business 
loans subject to the cap. These credit unions have been the 
source of most of the growth of credit union business lending. 
Over the next few years, the growth among these credit unions 
will dry up without an increase in the cap, and that would be 
bad for America's small businesses.
    The Udall bill establishes a two-tiered structure for 
credit union member business lending. Tier One credit unions 
would be eligible to engage in business lending up to the 
current limit. Tier Two credit unions would have to meet even 
more statutory and regulatory criteria and be approved by NCUA, 
and only then would they be permitted to engage in additional 
business lending. The Udall bill would permit credit unions to 
help small businesses in need of credit while at the same time 
ensuring that credit unions engaging in additional business 
lending would do so in a safe and sound manner.
    It is hard to believe that the Government is telling credit 
unions they cannot help create jobs in their local communities. 
There is really just one reason why. The banks oppose it. This 
answer does not satisfy the small business owner who has been 
turned down for a loan by multiple banks; it should not satisfy 
Congress. It should satisfy no one.
    There are at least 140,000 reasons to let credit unions do 
more small business lending, and there are no sound public 
policy reasons not to. Failure to expand the credit union 
member business lending cap would literally leave money on the 
table that could be loaned to small businesses to create jobs.
    The bankers say business lending is not a part of the 
credit union mission, but credit unions have been doing member 
business lending since day one. The bankers say increased 
business lending would undermine credit union safety and 
soundness, but credit unions do this type of lending more 
safely and soundly than banks.
    The bankers say increasing the cap would only affect a 
small number of credit unions while at the same time claiming 
that increasing the cap will hurt community banks. It is a 
contradiction, and the bankers are wrong on both counts. 
Increasing the cap will have a profound effect on the hundreds 
of credit unions that will reach the cap in the next few years, 
but it will not adversely affect the banker dominance of the 
small commercial loan market, currently at 95 percent. In fact, 
credit union member business lending actually helps local 
communities, including community banks, by stabilizing the 
local economy and creating jobs.
    The bankers say that increased credit union business 
lending will lead to a reduction of other types of credit union 
lending, but most credit unions have plenty of liquidity to 
fund the increase.
    The bankers say that credit unions should not be granted an 
expansion of powers because of their tax status. This argument 
is disingenuous when one-third of all banks are exempt from 
Federal income tax as Subchapter S corporations. The credit 
union tax status is based on the not-for-profit cooperative 
structure of credit unions, not credit union powers.
    The bankers say that increased business lending calls into 
question the credit union industry's commitment to serve the 
underserved, yet the credit union record of serving the 
underserved is well demonstrated. And when we have attempted to 
do more to serve the underserved, the bankers have brought 
lawsuits to stop us.
    As we recover from the Great Recession, small businesses 
are underserved, yet the bankers say that small business credit 
is not in short supply. But many small business owners report 
being turned away by their banks. It is a primary reason that 
Congress gave the banks access to 30 billion taxpayer dollars 
last year. Their lending is down. Our lending is up. There must 
be demand in the market if our lending is increasing.
    Credit unions want to meet the demands of their business-
owning members. The time is now to set aside the false and 
misleading banker rhetoric. We urge Congress to permit credit 
unions to do what they were established to do--serve their 
members, including those who own small businesses. We have the 
willingness to help. We have the capacity to help. But we need 
Congress to enact the Udall bill as supported by Treasury and 
the NCUA.
    Mr. Chairman, thank you very much for the opportunity to 
testify. I look forward to your questions.
    Chairman Johnson. Thank you, Mr. Cheney.
    Mr. Wilcox.

    STATEMENT OF NOAH WILCOX, PRESIDENT AND CHIEF EXECUTIVE 
  OFFICER, GRAND RAPIDS STATE BANK, ON BEHALF OF INDEPENDENT 
                  COMMUNITY BANKERS OF AMERICA

    Mr. Wilcox. Thank you, Chairman Johnson, Ranking Member 
Shelby, and Members of the Committee. I am Noah Wilcox, 
president and CEO of Grand Rapids State Bank. I am a fourth-
generation community banker and a member of the executive 
committee of the Independent Community Bankers of America. 
Grand Rapids State Bank is a State-chartered community bank 
with $230 million in assets located in Grand Rapids, Minnesota. 
I am pleased to represent community bankers and ICBA's nearly 
5,000 members at this important hearing on credit union member 
business lending.
    ICBA appreciates this opportunity to testify on legislation 
that would expand credit union powers by raising the cap on 
member business loans as a percentage of assets. We strongly 
oppose the Small Business Lending Enhancement Act, S. 509. 
Congress should not expand credit union business lending powers 
unless it is also prepared to tax credit unions and require 
compliance with the Community Reinvestment Act.
    The current tax exemption is directly linked to and can 
only be justified by their original mission of serving 
individuals of modest means. Credit union business lending is 
an immediate threat to my bank. I am happy to compete with 
other taxpaying lenders, even large banks, but the credit union 
tax exemption creates an unfair advantage and distorts the 
market.
    On countless occasions, I have lost business lending 
opportunities with established customers to credit unions who 
underpriced my competitive rates. Just last Friday, as I was 
preparing for this hearing, a long-time customer, with both 
personal and business lending relationships, told me they were 
taking three loans to two separate credit unions. One was a 
loan on real estate for development that the credit union 
priced 400 basis points below my competitive rate. The second 
is a small commercial loan, and the third is a residential 
mortgage on which the credit union offered a rate in the mid- 
3-percent range even though it does not qualify for funding in 
the secondary market.
    S. 509 would allow the NCUA to approve member business 
loans up to 27.5 percent of a credit union's assets--more than 
double the current cap of 12.25 percent. The cap was not set 
arbitrarily but was intended to ensure that commercial lending 
would comprise no more than a marginal part of a credit union's 
lending.
    The credit unions have portrayed S. 509 as an effort to 
make more credit available for small businesses. The truth is 
that only a small number of credit unions are at or near the 
current member business lending cap. We estimate this number to 
be about half of a percent of the approximately 7,400 credit 
unions. Over 70 percent of credit unions report no member 
business loans at all. Those credit unions that are at or near 
the cap are the largest and most complex credit unions, and the 
business loans they make are multimillion-dollar deals, not 
small business loans. There is ample capacity for the remaining 
99.5 percent to expand their member business lending. What is 
more, there are numerous exceptions to the member business 
lending cap.
    Some advocates of S. 509 claim that the expanded credit 
union commercial lending would come at no cost to taxpayers.
    The Joint Committee on Taxation, the Office of Management 
and Budget, and the Congressional Budget Office have all 
identified credit union lending as a tax expenditure. This is 
why the Bipartisan Policy Center's Debt Reduction Task Force, 
chaired by former Senator Pete Domenici and former OMB Director 
Alice Rivlin, recommended eliminating the tax exemption, and it 
would be appropriate for the Senate to hold hearings on the 
credit union tax exemption.
    What is the cost of the tax subsidy? The most comprehensive 
and sophisticated analysis to date was done by the nonpartisan 
Tax Foundation, which valued the subsidy at $3 billion a year 
and $32 billion over a 10-year budget window. The credit union 
loan I mentioned earlier that was underpriced by 400 basis 
points was surely made possible by this tax subsidy and perhaps 
also a failure to adequately evaluate the risk. The case for 
repealing the credit union tax exemption stands on its own 
merits as a deficit reduction measure. When credit unions seek 
to expand their business lending powers and become the 
equivalent of banks, linking expanded lending powers to the 
repeal of the tax exemption is a matter of tax equity.
    Thank you again for convening this important hearing, 
Chairman Johnson. As a community banker, I feel the direct 
impact of credit union commercial lending, so I am grateful for 
the opportunity to provide my perspective. ICBA strongly 
encourages this Committee to reject calls for new powers for 
tax-subsidized credit unions that will not, despite assertions 
to the contrary, measurably expand small business credit or 
create jobs.
    I look forward to answering your questions.
    Chairman Johnson. Thank you, Mr. Wilcox.
    Mr. Lussier.

  STATEMENT OF MICHAEL LUSSIER, PRESIDENT AND CHIEF EXECUTIVE 
 OFFICER, WEBSTER FIRST FEDERAL CREDIT UNION, ON BEHALF OF THE 
         NATIONAL ASSOCIATION OF FEDERAL CREDIT UNIONS

    Mr. Lussier. Good morning, Chairman Johnson, Ranking Member 
Shelby, and Members of the Committee. My name is Mike Lussier, 
and I am testifying today on behalf of the NAFCU where I 
currently serve as chairman of the board of directors. I have 
served as president and CEO of Webster First Federal Credit 
Union, headquartered in Worcester, Massachusetts, since 1990.
    Webster First is a community credit union with over 44,000 
members and more than $570 million in assets. NAFCU and the 
entire credit union community appreciate the opportunity to 
participate in this discussion regarding member business 
lending and allowing credit unions to further assist in the 
economic recovery.
    When Congress passed the Credit Union Membership Access Act 
in 1998, it put in place restrictions on the ability of credit 
unions to offer member business loans, but at the same time 
asked the Treasury Department to study the need for such a cap.
    In January 2001, the Treasury Department released its study 
and found the following: that credit unions' business lending 
currently has no effect on the viability and profitability of 
other insured depository institutions. The 1998 Act also 
established that a business loan of $50,000 and above counts 
toward the cap. This number was not indexed and has not been 
adjusted for inflation in nearly 13 years since enactment.
    Some critics claim that only a limited percentage of credit 
unions are actually at the lending cap and, therefore, nothing 
needs to be done. This view fails to see the big picture of how 
the cap acts as a disincentive because credit unions that 
invest in business lending and that are successful will 
ultimately reach this threshold.
    The banking industry argues that the credit union business 
lending cap should not be raised due to the credit union 
Federal tax exemption. What the banking industry conveniently 
forgets to mention is that a large number of banks do not pay 
corporate Federal income taxes themselves because of their 
Subchapter S status. There are nearly 2,400 Subchapter S banks 
that avoid Federal income taxes today, and the value of their 
tax break is actually greater than the estimated value of the 
entire credit union tax exemption, as reflected in the 
Administration's budget.
    Webster First has been at the business lending cap for over 
a year now. At Webster First we understand that member business 
lending is not about credit unions but about helping small 
businesses and the jobs they create. It is unfortunate that 
Webster First cannot handle all the requests to help small 
businesses that we receive due to this cap.
    Webster First has made some great inroads into business 
lending and has assisted multiple families and businesses in 
becoming quite successful. For example, we helped an individual 
purchase an older gas station from his parents. He was able to 
upgrade all his fuel pumps, computer services, and revamp his 
store. It now includes a coffee shop, package store, and a 
multipump service station. His success allowed him to then 
upgrade the unused property behind the station for storage 
rental units which quickly became 90 percent utilized. He 
recently sold the property for a substantial profit and has now 
acquired other properties to expand his business. And as this 
Committee knows, business expansion means job creation.
    In March, Senator Mark Udall introduced the Small Business 
Lending Enhancement Act. This bipartisan legislation would 
raise the credit union member business lending cap to 27.5 
percent of total assets, up from 12.25. This would stimulate 
the Nation's struggling economy by increasing access to credit 
for small business owners. In order to see its cap increased, a 
credit union would need to meet strict eligibility requirements 
before gradually increasing its business loan portfolio. This 
bill is a well-thought-out solution that includes important 
provisions to ensure that safety and soundness concerns are 
addressed. This bill will not only help credit unions but, more 
importantly, it will help America's small businesses.
    NAFCU and its member credit unions ask that the Small 
Business Lending Enhancement Act be considered by the Banking 
Committee and on the Senate floor as soon as possible.
    In summary, the credit union member business lending cap 
established in 1998 is arbitrary and outdated. The need for 
such a cap was questioned by the Treasury Department as far 
back as 2001. While NAFCU believes that no statutory cap should 
be in place, a number of credit unions like mine and the 
millions of members we serve would benefit from the enactment 
of the Small Business Lending Enhancement Act. This legislation 
would provide a practical and well-thought-out approach to 
raising the cap while addressing concerns about rapid growth 
and safety and soundness. NAFCU would also support raising the 
$50,000 definition of a member business loan as it has not been 
increased since its inception.
    In conclusion, many credit unions have capital to lend 
small businesses across the country and are in a position to 
further assist in recovery efforts. However, due to the member 
business lending cap, they are hampered. Raising this cap will 
make available immediate funding to help small businesses 
create much-needed jobs.
    I thank you for the time and the opportunity to testify 
before you today, and I welcome any questions as well. Thank 
you.
    Chairman Johnson. Thank you, Mr. Lussier.
    Mr. Wilson.

 STATEMENT OF STEPHEN P. WILSON, CHAIRMAN AND CHIEF EXECUTIVE 
OFFICER, LCNB NATIONAL BANK, ON BEHALF OF THE AMERICAN BANKERS 
                          ASSOCIATION

    Mr. Wilson. Chairman Johnson, Ranking Member Shelby, my 
name is Steve Wilson. I am chairman and CEO of LCNB Corp. and 
LCNB National Bank in Lebanon, Ohio. I am also the current 
chairman of the American Bankers Association.
    ABA is strongly opposed to the recent efforts by the credit 
union industry to redefine the credit union charter in ways 
that would effectively turn credit unions into tax-exempt 
banks. This effort, most recently embodied in Senate bill 509, 
would allow credit unions that are within 80 percent of their 
member business lending cap to increase this cap and take on 
significantly more business lending. This would allow a new 
breed of credit unions to more aggressively pursue business 
customers through multimillion-dollar commercial loans. It 
would also serve as an invitation to credit unions that are 
currently not near this cap to focus on business lending, to 
the exclusion of consumer lending.
    Under current law, credit unions have an aggregate member 
business lending cap of 12.25 percent of assets. However, 
business loans under $50,000 do not count against this cap, nor 
do many other types business loans--leaving ample room for 
credit unions to serve small businesses. There is a limitation 
on business lending because credit unions are tax exempt, and 
this tax exemption is meant to be targeted at people of small 
means, not real estate developers. Senate bill 509 would allow 
the NCUA to increase the business lending cap for qualifying 
credit unions to 27.5 percent of assets--more than double the 
current cap, and a greater business lending authority than that 
of Federal thrifts.
    A credit union that applies and receives the authority to 
increase business lending almost certainly would reduce its 
non- housing-related consumer loans. However, the bill does not 
require the credit union to notify its members in a clear and 
conspicuous manner that they could see a reduction in consumer 
loans. And the bill does not require the members of a credit 
union to approve an expansion in business lending, an action 
that would essentially create a tax-exempt bank. In contrast, 
credit unions that seek mutual savings bank charters must mail 
such a notice and give such a disclosure and have an 
affirmative vote.
    Make no mistake about it. Senate bill 509 would allow a 
credit union to look and act just like a bank, without the 
obligation to pay taxes or have bank-like regulatory 
requirements, such as the Community Reinvestment Act.
    Members of Congress have recognized this fundamental 
problem repeatedly. Senator Kerry himself stated from the 
Senate floor, credit unions ``were never intended to be simply 
alternative, tax-exempt commercial banks.'' There is a strong 
legislative history that supports the unique charter of credit 
unions with very specific restrictions on business lending. 
These restrictions were put in place to protect credit unions 
from lending that could pose serious threats to their safety 
and soundness. In addition, they were put in place to ensure 
that credit unions remained primarily focused on individuals, 
especially of small means.
    The congressional concern is well founded and echoed by 
many within the credit union industry itself. Business lending 
is risky business and should be limited for all credit unions.
    However, there is an alternative. Credit unions that want 
to expand business opportunities already have an option 
available to them. They can switch to mutual savings charters. 
This charter provides the flexibility credit unions desire, 
preserves the mutual member focus that is the trademark of the 
credit union charter. Unfortunately, the NCUA has erected 
obstacles, making it extremely difficult for a credit union to 
become a mutual savings bank.
    I thank you for this opportunity to share ABA's and my 
thoughts, and I am happy to answer any questions.
    Chairman Johnson. Thank you, Mr. Wilson.
    A question for Mr. Wilson and Mr. Wilcox. Over the past 
several years, there have been many versions of legislation to 
remove or raise the cap for member business lending at credit 
unions. Last year Senator Udall made many changes to his 
legislation to give more control to the regulator to determine 
which credit unions should be able to lend above the current 
cap and to require that such a credit union demonstrate a 
history of sound underwriting of business loans.
    What do you think about the changes made by Senator Udall? 
And do they address any of your concerns? Mr. Wilson.
    Mr. Wilson. Thank you very much. I would like to respond to 
one thing as I begin here that was in the testimony, and that 
is that Subchapter S banks do not pay Federal taxes. I am not a 
Subchapter S bank. I am a $750 million for-profit commercial 
bank that pays taxes. But I pay taxes twice. I pay taxes as the 
bank when we make the money, and then I dividend to my owners, 
the shareholders, and they pay taxes on the same income.
    It is true that Subchapter S banks only pay the taxes that 
is dividended to their owners, but they do pay Federal taxes, 
and that is quite a misnomer to say that they do not. So I 
wanted to clear that up.
    Now, as to your question, no, there is still a great 
concern on our part, and the concern is--I will just use my 
bank as an example. I compete, as a $750 million national bank, 
against credit unions that are much larger than I am--GE Credit 
Union, Wright Pat Credit Union. I look at their ads. I look at 
their billboards. And the first thing they say is if you work, 
live, worship, in essence breathe in my market area, you are 
their member. So, first of all, this whole idea that they have 
a common bond is not true. So they are competing directly with 
me.
    I am awash in liquidity. My normal loan-to-deposit ratio is 
between 75 and 80 percent, and that is pretty conservative for 
a bank. I am down to 60 to 65 percent. I want to make loans, 
and I want to make loans bad. I fall all over any small 
business person that comes in my office and wants to have a 
loan because I need those loans.
    Now, there are only two reasons I am going to lose a loan 
to a credit union. Number one, they are going to use their tax-
exempt status to underprice me. You must realize that when I 
make a dollar, I only keep 60, 70 percent of that dollar. When 
they make a dollar, they keep 100 percent of it. So they have 
quite an ability and advertise that ability that they can pay 
more on deposits and charge less for loans. So they use that 
tax-exempt status. They do not have the common bond. And so I 
can lose a loan because they can underprice me, or I can lose a 
commercial loan because I would not have made it in the first 
place, and they are willing to make a loan or take more risk 
than I am willing to take. And I do not know that that is in 
the best interest of the credit union charter.
    You know, I like the credit union charter. ABA is for 
charter choice. It is the foundation, the absolute foundation 
of the dual banking system. But different charters have 
different restrictions, and these business lending caps should 
stay in place.
    Chairman Johnson. Mr. Wilcox.
    Mr. Wilcox. The changes that you inquired about simply do 
not go far enough, first of all, but I, like Mr. Wilson, 
compete directly with credit unions in my market that are in 
some cases four or five times the size of my $230 million bank. 
They do use their tax-exempt status to very selectively target 
the loans that they would like to take and in a fashion that I 
simply cannot compete with on price. In many cases we do see 
increased risk in loans that are not able to be underwritten in 
a safe and sound manner taken on in some cases in the credit 
unions, and the restrictions that are in place are there for a 
reason. If they would like to enjoy their tax-exempt status and 
continue to do so, those restrictions should remain in place.
    But, you know, I would be the first to say I would welcome 
all credit unions to make the Subchapter S election to pass 
those taxes on to their members, just like I pass on--I am a 
Subchapter S community bank, and our shareholders do pay the 
tax. We do not pay tax at the corporate level, but our 
shareholders pay that State and Federal tax, in our case at 
quite a high rate. So I would encourage all credit unions to 
make that election and go ahead and support that tax, and if 
they want to do that, then engage in commercial lending as they 
see fit.
    Chairman Johnson. Thank you, Mr. Wilcox.
    Mr. Cheney and Mr. Lussier, it appears that the levels of 
delinquent member business loans and charge-offs have 
increased. Does the current economic climate dissuade you from 
underwriting member business loans? Mr. Cheney.
    Mr. Cheney. Thank you. It is true that member business 
lending delinquency increased, as did charge-offs, during the 
economic crisis. But recently we have seen those numbers come 
down, and interestingly, as is reflected in our written 
testimony, credit union member business loans actually 
performed much better than bank loans.
    I will say that underwriting standards are credit unions, 
as I am sure at all financial institutions, have gotten another 
look from a management perspective because of the crisis. But 
the credit unions have a strong track record of safe and sound 
business lending.
    Chairman Johnson. Mr. Lussier.
    Mr. Lussier. Yes, sir, thank you. First of all, I think 
that when you look at the delinquencies on the business loans, 
we have to take into consideration that the real estate loans, 
consumer loan portfolio, credit card portfolios delinquencies 
have all been increased with the downturn in the economy. One 
of the things I will say is that the delinquent loans that we 
have had in our portfolio--I can only speak for Webster right 
now, but our delinquencies in the commercial loan portfolio are 
2 percent. Our losses are nearly nil. I believe there has been 
one substantial loan that we had taken a loss on, which 
represented about $100,000 in loss, of which we basically 
regained some of that loss when the property was resold.
    So speaking on behalf of an institution that writes well-
underwritten and secured loans in the business loan portfolio, 
I find that the delinquencies are rare. I think we are OK. We 
are able to continue writing loans. We are maxed out, like I 
stated in the beginning, and we are at the cap. And we continue 
to look for the opportunity to serve the business people in our 
community regardless of the present delinquency status.
    Chairman Johnson. Mr. Lussier, how do you manage the risks 
associated with business loans at your institution during these 
difficult economic times?
    Mr. Lussier. Well, first and foremost, a couple comments 
were made about the big multimillion-dollar loans. We have a 
couple loans that are sizable. I think the largest one is 
probably $3 million. However, a majority of our loans are 
diversified among small business owners who are pretty much 
looking for the $50,000 to the $250,000 loan. I would say that 
80 percent to 85 percent of my loan portfolio fits within a 
national average of approximately $233,000 on average. We 
basically diversify among collateralization for real estate, 
equipment, heavy equipment, very few on receivables. We are 
pretty much conservative on who we underwrite to, but we 
actually look at all the businesses that come in and request 
our lending. We give them all an opportunity today, and we try 
to make sure that if it possible that we can lend them the 
money to enhance their businesses we do so in the best fashion 
possible. But we also make sure that we are not giving away 
money.
    So we follow the rules and regulations that are set forth 
by NCUA, and they also come in to make sure that we are 
diversified and that we do not have a high concentration in any 
area. That is how we reduce our risk.
    Chairman Johnson. Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    Mr. Lussier, in Mr. Wilson's testimony he argues that 
increasing the business lending cap would allow credit unions 
to look and act just like banks, as you heard, without having 
to pay taxes or comply with bank-like regulatory requirements. 
How do you respond to those concerns that the playing field is 
not level because credit unions are tax exempt and so forth?
    Mr. Lussier. Well, we could talk about this all day, but I 
will say----
    Senator Shelby. I think that is an important subject.
    Mr. Lussier. Yes, and I agree with you. Thank you for 
asking me. I will say this: There are major differences between 
a credit union and a bank, and without going through the whole 
platter of the differences, I will say that a majority of the 
difference is that we run on volunteerism. Our institutions are 
run under more regulatory restraints than the banks can be--
than the banks are. This----
    Senator Shelby. Say that again. Are you saying that the 
credit unions are under more regulatory scrutiny than the 
banks?
    Mr. Lussier. We are under more regulatory restraints than 
the banks, and here is an example. We are trying to basically 
increase our limitations on business lending. We have more 
restrictions on what we can offer because we are credit unions. 
And all we are asking here is that we need to be able to 
increase these limitations slightly in order to better enhance 
our services to the members.
    Senator Shelby. CAMELS ratings are an important indication 
of the safety and soundness of any financial institution, 
credit union. Would you support requiring a credit union to 
have a CAMELS rating of 1 or 2 before its business lending cap 
could be increased? Because that goes to safety and soundness.
    Mr. Lussier. Well, there is no doubt. A 1 and 2, it 
definitely shows you that an institution is safe and sound. A 
CAMEL rating 3 does not mean an institution is failing and is 
not safe and sound. A CAMEL 3----
    Senator Shelby. It does not mean it is failing, but it is 
an indication it might not be strong.
    Mr. Lussier. I would agree with you.
    Senator Shelby. OK.
    Mr. Lussier. I would agree with you. But a CAMEL rating 1 
and 2 institution moving ahead to have the possibility of 
increasing according to these limitations, I would support 100 
percent.
    Senator Shelby. Mr. Cheney, you argue, as I understand it, 
that the cap on business lending disproportionately hurts small 
credit unions.
    Mr. Cheney. Yes.
    Senator Shelby. You have also indicated that raising the 
cap to 27.5 percent would--these are your words--change the 
economics significantly, making it possible for credit unions 
as small as $20 million to reasonably participate in this 
market. Those are your words. What is the basis for determining 
that increasing the cap to 27.5 will be sufficient for small 
credit unions to participate in business lending?
    Mr. Cheney. Well, thank you, Senator. The basis for it is 
that it allows more credit unions to be able to justify the 
investment necessary to set up a business lending operation. 
You have to hire people that have experience in the field. You 
have to set up procedures and systems and safeguards and 
internal controls, so that is really the basis for that 
statement.
    Senator Shelby. You also in your testimony, Mr. Cheney, 
point out that nearly 70 percent of credit unions do not engage 
in any business lending currently. Why do so few credit unions 
currently make business loans? And for those credit unions that 
do business lending, what are the most common types of loans 
that they make?
    Mr. Cheney. We think that the cap is a reason that so few 
credit unions do business lending because the restriction is so 
low. And, by the way, before 1998, there was no restriction on 
credit union business lending. There was no cap. But the cap, 
if you are a $20 million or a $50 million credit union, you 
cannot justify the expense. So we think raising the cap, as 
Chairman Matz said, will encourage more credit unions to get 
involved. And in terms of the types of lending, the average 
credit union member business loan is less than $250,000. Most 
are small business loans--not all, but most credit unions make 
loans to small businesses, as Mr. Lussier said is the case with 
his credit union.
    Senator Shelby. Mr. Wilson, you probably were here earlier 
when Chairman Matz testified. She noted that one way to deal 
with the credit crunch would be to increase the business 
lending cap. She noted also that access to credit remains 
difficult for many small businesses and entrepreneurs that 
depend on financial institutions for funding.
    Why do you think that many small businesses are facing a 
credit crunch?
    Mr. Wilson. Because of the state of the economy. Their 
cash-flows are down. Their collateral has been diminished. 
There are a number of reasons. There are people that we would 
have lent to in the past that we cannot lend to today, and 
hopefully we will be able to lend to tomorrow. And I think it 
wise that we do not from a safety and soundness standpoint.
    You know, one of the statements that was made that kind of 
mystified me was that credit unions are more tightly regulated 
than banks, and particularly in the commercial lending----
    Senator Shelby. It intrigued some of us, too.
    Mr. Wilson. That was an interesting statement. You know, 
they made the statement in testimony that, boy, they do a 
better job because they have had less charge-offs than we have 
had as banks. And so I was curious about that, and I went to 
the CUNA site and gathered some statistics, and it seems like 
we are not comparing apples to apples here, because I would say 
that my regulator, the Office of the Comptroller of the 
Currency, is much stricter. I was amazed at the reason that 
they avoid charge-offs, and that is because they allow 
delinquencies 12 months and beyond. They have a great bucket of 
loans that are delinquent more than 12 months.
    Senator Shelby. What would you----
    Mr. Wilson. Banking regulators would have had us write 
those off well before they get to 12 months, so that is not 
really a fair comparison.
    The other thing that is such a misnomer, that even though 
tax exempt and having the requirement to serve people of modest 
means, you probably are aware that GAO did a study on that and, 
in fact, banks service more low- to moderate-income 
individuals, households, than credit unions do. The GAO found 
that a low- to moderate-income service in banks was 41 percent 
of the households. In credit unions it was 31 percent of the 
households. Let us get rid of this tax exemption. Let us 
compete head on and let us take care of small businesses and 
let us create jobs.
    Senator Shelby. Mr. Wilson, has the Dodd-Frank legislation 
and other regulatory burdens had an impact on the ability of 
banks to make loans to small businesses?
    Mr. Wilson. Oh, absolutely. Absolutely. The time we spend 
on regulatory burden, the uncertainty that all of this 
regulatory environment and the tax environment has created has 
caused many of our good business customers, those that would 
normally be expanding, buying plant and equipment, creating 
jobs, not to pull the trigger on projects. I do not think I 
have ever had a larger pipeline of loans where the individual 
businesses are not willing to pull the trigger because of the 
uncertainty of taxes and regulation, et cetera.
    Senator Shelby. Mr. Wilson, I think you went into this a 
little bit earlier, but I want to, for the record, go back into 
it. Both Mr. Cheney and Mr. Lussier note in their testimony 
that about one-third of all banks or Subchapter S corporations 
are exempt from Federal income tax. They argue that puts many 
banks on a more equal playing field with credit unions. You 
talked about that earlier. Just again for the record, how does 
the tax treatment of Subchapter S corporations compare to the 
taxation of credit unions? I thought tax--am I wrong? Credit 
unions are exempt from tax, period.
    Mr. Wilson. Period. That is correct.
    Senator Shelby. Whereas, if you are a Subchapter S 
corporation, it passes to the owners and they pay the tax.
    Mr. Wilson. That is correct.
    Senator Shelby. So the tax is paid one or both ways. Is 
that right?
    Mr. Wilson. That is correct. It is paid--if you are a C 
corporation, you pay it twice. You pay it when you make it, and 
your owners pay it when they receive it in the form of 
dividends. In the case of Subchapter S, they only pay it once, 
but they pay it. They are taxpaying entities, and I do not have 
a problem whatsoever as a C corporation competing against a 
Subchapter S.
    Senator Shelby. Mr. Wilcox, in your testimony you also 
noted that your bank has lost business lending opportunities 
with established customers to credit unions. You argue that the 
credit union tax exemption creates an unfair advantage and 
distorts the market. Just again for the record here, how does 
the credit union tax exemption undermine your ability to offer 
competitive rates? Is it because you are taxed and they are 
not?
    Mr. Wilcox. That is correct.
    Senator Shelby. OK. Also, Mr. Wilcox, Mr. Cheney states in 
his testimony that business loan net charge-off rates for 
credit unions have been roughly one-fourth of the average for 
banks since 1998. Accordingly, he argues that credit unions can 
provide business lending in a more safe and sound manner than 
banks. Why do credit unions appear to have lower net charge-off 
rates for business lending than banks? Is there a reason here? 
Is it the way they are regulated? Is it the way they approach 
it? Or what is it?
    Mr. Wilcox. Well, it could have to do with some of that, 
and I think Mr. Wilson spoke to a few of those facts. Banks are 
under very strict regulatory requirements, especially as it 
pertains to charge-offs. We have hard caps on days delinquent, 
and then depending on the type of credit that it is, it is 
demanded to be charged off. If not, you do face some pretty 
severe regulatory scrutiny. All of the Federal regulators as 
well as the State regulators--in my case I see both as a State 
chartered bank--do look at that on a very regular basis, each 
examination. They are looking from a safety and soundness 
perspective to be certain that the banks are not only managing 
their delinquency but not hiding it. It would be inconceivable 
for me to have a loan that is severely delinquent and be able 
to carry it continuously on my books for 12 months and not 
charged off. I would be criticized and could possibly face 
enforcement orders or other things of that nature if that was 
as routine practice in a bank.
    Senator Shelby. Would that be what we call ``toxic 
assets''?
    Mr. Wilcox. I would not want them on my books.
    Senator Shelby. Thank you.
    Mr. Cheney. Senator, might I comment on that as well? I am 
sorry. In terms of charge-offs versus delinquencies, credit 
unions' charge-offs are lower than banks' but credit unions' 
delinquency is lower than banks' too. I do not think it is a 
situation where credit unions are hiding delinquency by putting 
it in charge-offs because it has got to be in there somewhere. 
It is one or the other.
    In terms of loans that are delinquent that have been on the 
books for a long period of time, those are easily discernible, 
as Mr. Wilson did, from credit union call reports and is 
something that the regulators track very closely. If there is a 
loan that is on there for more than 12 months, I can assure you 
there is a reason for that.
    And if I might also, just while I have the microphone, 
comment on Subchapter S status. When credit unions distribute 
their earnings to their members in the form of dividends, their 
members, who are the owners of the credit union, pay taxes on 
those dividends. A tax on a credit union is nothing more than a 
tax on a credit union member.
    Mr. Wilcox. If I might, Senator?
    Senator Shelby. Yes.
    Mr. Wilcox. That does presume that the credit union is 
paying the dividends to the members. I am a Subchapter S bank. 
I was a C corporation before we were allowed to take that 
election. With the election come many restrictions, and we 
chose to operate within those confines. However, whether or not 
the Subchapter S makes a dividend distribution to its 
shareholders, the tax must be paid, period. So even if the 
holding company or the bank does not make that distribution----
    Senator Shelby. Tax on earnings, would it not?
    Mr. Wilcox. That is correct. Whether or not the 
shareholders receive a dividend check from a Subchapter S bank, 
the shareholders pay the tax every quarter.
    Senator Shelby. If there are some earnings.
    Mr. Wilcox. Right.
    Senator Shelby. Thank you, Mr. Chairman.
    Chairman Johnson. I want to thank the witnesses for this 
testimony on this issue. As we have seen, the views on these 
issues are varied, and I think today's hearing yielded some 
good information for us to review as we consider this issue 
going forward.
    Thanks again to my colleagues and our panelists for being 
here today. This hearing is adjourned.
    [Whereupon, at 11:26 p.m., the hearing was adjourned.]
    [Prepared statements, responses to written questions, and 
additional material supplied for the record follow:]

               PREPARED STATEMENT OF CHAIRMAN TIM JOHNSON

    I want to welcome and thank our witnesses for being here today to 
testify on the issue of credit union member business lending.
    Under the Federal Credit Union Act, credit unions are limited in 
the amount of business lending they are permitted to engage in. The 
aggregate amount of member business loans made by a credit union is 
restricted to the lesser of 1.75 times the credit union's net worth, or 
12.25 percent of the credit union's total assets. The member business 
lending cap was put in place in 1998 with the passage by Congress of 
the Credit Union Membership Access Act.
    Since that time, the credit union industry has advocated for a 
removal of, or increase in, the business lending cap. Senator Mark 
Udall has introduced legislation that would raise the cap to 27.5 
percent of total assets.
    There is a wide range of views on this matter, especially as 
Congress considers proposals to speed the economic recovery.
    I think that it is important that we take the time to examine this 
issue here in Committee, and provide the opportunity for all sides to 
fully express their views on the subject.
                                 ______
                                 
            PREPARED STATEMENT OF SENATOR RICHARD C. SHELBY

    Thank you, Mr. Chairman, historically, credit unions have focused 
on meeting the savings and credit needs of their members, especially 
people of modest means. In recognition of this unique role, credit 
unions, unlike banks, have been tax-exempt.
    Today, the Committee will examine whether credit unions should be 
allowed to lend to businesses. This is not the first time the issue of 
business lending by credit unions has come before this Committee.
    In 1998, this Committee passed, and Congress eventually enacted, 
legislation that placed significant restrictions on business lending by 
federally insured credit unions.
    At that time, the number of business loans made by credit unions 
was quite small. In fact, a report of this Committee that accompanied 
that legislation acknowledged that consumer loans made up nearly 99 
percent of all credit union lending.
    Nevertheless, Congress limited business lending in order to prevent 
excessive risk-taking by credit unions.
    A report by the National Credit Union Administration had found that 
business lending caused half of the losses to the National Credit Union 
Share Insurance Fund in the 2 prior years.
    Additionally, in 1991 another report found that failing credit 
unions had made more business loans than other credit unions.
    Now, the ongoing credit crisis has prompted some to propose 
increasing the business lending limit.
    The credit crunch is a problem of concern to us all.
    As we examine this issue, however, we should first ask why credit 
is so hard to obtain.
    In particular, how has the Dodd-Frank Act affected credit 
availability?
    Alternatively, is the unprecedented Federal deficit crowding out 
private sector lending?
    If we want to address the problem of credit availability to small 
businesses, a more comprehensive approach may be appropriate.
    In addition, we should ask how changing business lending limits 
would affect the safety and soundness of credit unions.
    Even with the current limitations on business lending, we continue 
to see credit union failures.
    Recently, the NCUA announced the 13th closure or conservatorship of 
a credit union this year. Over the last 2 years, 55 credit unions have 
failed.
    I hope to learn today whether business lending was a contributing 
factor in any of these failures.
    Changing the business lending limitations can alter the competitive 
landscape not only between banks and credit unions, but also among 
credit unions.
    Although they are not here today, we will need to hear from the 
bank regulators so that we can fully understand the effect such a 
change would have on the entire industry.
    Ultimately, healthy and strong credit unions are good for our 
economy and consumers. It is my hope that today's hearing will shed 
more light on how we can ensure that credit unions continue to serve 
their unique and important role in the Nation's economy.
    Thank you, Mr. Chairman.
                                 ______
                                 
            PREPARED STATEMENT OF SENATOR CHARLES E. SCHUMER

    Thank you Mr. Chairman. I want to thank you for holding this 
important hearing, on an issue I have cared deeply about for some time 
now: lifting the artificial restraints we currently place on the 
ability of credit unions to help small businesses access much-needed 
credit.
    As we heard in testimony from Chairman Matz and Mr. Cheney today, 
credit unions have been engaged in member business lending since their 
creation. And only since 1998 have they been subject to this arbitrary 
cap on their business lending, which effectively limits each credit 
union's business lending to no more than 12.25 percent of their total 
assets.
    In the past two Congresses I have introduced bills that would raise 
or eliminate this cap. Last Congress, my good friend from Colorado, 
Senator Mark Udall, took up the cause with a bill to raise the cap to 
27.5 percent of total assets as long as certain criteria to ensure 
safety and soundness are met. He has reintroduced his bill this 
Congress, with bipartisan support and a total of 19 cosponsors, 
including Senators Reed and Brown on the Banking Committee.
    I want to say a few words about the bill and encourage all of my 
colleagues to support this commonsense way to immediately increase the 
amount of credit available to small businesses--at no cost to the 
taxpayer.
    We just came through the worst credit crunch any of us have ever 
seen, and access to credit is still a significant issue for small 
businesses in NY and all over the country. Even through the downturn, 
credit unions have continued to increase their business lending, but 
they are limited in their ability to do more. Senator Udall's bill will 
provide a much-needed boost to help small businesses expand and hire.
    In the Fall, Congress passed, and the President signed into law, a 
bill to help small businesses that included a $30 billion fund to help 
community banks increase their lending to small businesses. I strongly 
supported the creation of that Small Business Lending Fund, but Senator 
Udall and I and others fought to include his legislation for credit 
unions in that bill. We ultimately did not prevail. Well, nearly 9 
months later that $30 billion fund has barely been put to work.
    I hold out hope that the Fund will be put to good use easing the 
burden on small businesses, but credit unions are waiting to fill the 
gap, and I don't see why we should unnecessarily limit ourselves--
credit unions are an important source of credit for individuals and 
small businesses in this country, and it's important that we ask what 
they can do to help get our economy grow again.
    When the idea for the Member Business Lending bill was originally 
proposed, some concerns were raised about safety and soundness of the 
credit unions themselves, their members, and the credit unions' 
insurance fund. So my office worked with Senator Udall's staff and the 
Treasury and NCUA to come up with a plan that would address those 
concerns.

  <bullet>  First, the cap is only raised for credit unions that meet 
        strict eligibility criteria. To qualify, credit unions must be 
        well capitalized, demonstrate sound underwriting and servicing 
        based on historical performance, have strong management and 
        policies to manage increased lending, and be approved by their 
        regulator for the higher cap.

  <bullet>  They must also be at or above 80 percent of their current 
        cap, with 5 or more years of experience lending to member 
        businesses. This means that only credit unions with significant 
        experience lending to small businesses will have their cap 
        raised, and it is targeted at those credit unions most likely 
        to expand their lending because they are at or near the 
        existing cap.

  <bullet>  Even if they meet the criteria, credit unions can't grow 
        their lending by more than 30 percent in any 1 year, and their 
        regulator can make them grow even slower. That will ensure that 
        credit unions don't grow their business faster than they can 
        handle.

    Based on conservative estimates, this amendment could lead directly 
to over $12 billion in new lending and create up to 140,000 new jobs. 
In my home State of New York, it could create over $1 billion in new 
lending and up to 9,000 new jobs. And it does all that at NO COST to 
the Federal Government.
    Certainly this is not a cure-all for our economy. But with small 
businesses still struggling to get the credit the need, it seems to me 
that we should be trying everything we can to increase lending. And 
this amendment does it in a sensible way, to ensure safety and 
soundness are preserved in the system, and, I repeat, without costing 
any taxpayer money.
    In short, this just makes sense and I urge my colleagues to support 
the legislation sponsored by my friend from Colorado.

                   PREPARED STATEMENT OF DEBORAH MATZ
             Chairman, National Credit Union Administration
                             June 16, 2011

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   PREPARED STATEMENT OF BILL CHENEY
     President and Chief Executive Officer, Credit Union National 
                              Association
                             June 16, 2011

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   PREPARED STATEMENT OF NOAH WILCOX
  President and Chief Executive Officer, Grand Rapids State Bank, on 
           behalf of Independent Community Bankers of America
                             June 16, 2011

Opening
    Chairman Johnson, Ranking Member Shelby, and Members of the 
Committee, I am Noah Wilcox, fourth generation President and CEO of 
Grand Rapids State Bank and a member of the Executive Committee of the 
Independent Community Bankers of America. Grand Rapids State Bank is a 
State chartered community bank with $236 million in assets located in 
Grand Rapids, Minnesota. I am pleased to represent community bankers 
and ICBA's nearly 5,000 members at this important hearing on credit 
union member business lending.
    ICBA appreciates this opportunity to testify on legislation (S. 
509) that would expand credit union powers by raising the cap on member 
business loans as a percentage of assets. We strongly oppose the Small 
Business Lending Enhancement Act. Congress should not expand credit 
union business lending powers unless it is also prepared to tax credit 
unions and require them to comply with the Community Reinvestment Act. 
The credit union tax exemption is directly linked to and can only be 
justified by their original mission of serving individuals of modest 
means. Any expansion of their powers beyond the original mission should 
result in the loss of their tax exemption.
    I want to make clear that community bankers strongly support 
locally based nonprofit organizations. I have served on a number of 
nonprofit boards, including the Grand Rapids Area Community Foundation 
and the Itasca County Family YMCA. Many of my community bank colleagues 
perform similar service. These nonprofits justify their tax exemption 
by serving a public mission. Our concern is that credit unions, having 
strayed far from their statutory mission, are abusing their tax exempt 
status and are seeking to go even farther.
    This topic is not in the least abstract for me. For my bank, credit 
union business lending represents an immediate threat. I'm happy to 
compete with other tax-paying lenders, even large banks, but the credit 
union tax exemption creates an unfair advantage and distorts the 
market. I have very aggressive credit unions in my market. On countless 
occasions, I've lost business lending opportunities with established 
customers to credit unions who underpriced my competitive rates. Just 
last Friday, as I was preparing for this hearing, a longtime customer, 
with both personal and commercial lending relationships, told me they 
were taking three loans to two different credit unions. One of the 
loans was a loan on real estate for development that the credit union 
priced about 400 basis points less than our rate, which is competitive. 
This rate is even lower than can be accounted for by the tax advantage, 
suggesting that the credit union, inexperienced in business lending, 
did not appropriately price the risk. The second loan is a small 
commercial loan. And the third loan is a mortgage on the borrower's 
residence, on which, though it does not qualify for the secondary 
market, the credit union, has offered a rate in the mid- 3-percent 
range.
    S. 509 would allow the NCUA to approve member business loans that 
raise a credit union's total amount of outstanding loans to 27.5 
percent of assets--more than double the current cap of 12.25 percent. 
The current cap was established in 1998 as part of the Credit Union 
Membership Access Act, which completely undermined the original 
``common bond'' requirement for credit union customers. The 1998 law 
reversed a recent Supreme Court decision and allowed credit unions to 
serve a customer base with multiple common bonds. Because the law made 
the common bond requirement nearly meaningless, the member business 
lending cap was deemed especially important to maintain a distinction 
between credit unions and banks. The 12.25 percent cap was not chosen 
arbitrarily but was intended to ensure that commercial lending would 
comprise no more than a marginal part of a credit union's lending.
    The credit unions have portrayed S. 509 as an effort to make more 
credit available for small businesses. The truth is that only a small 
number of credit unions are at or near the current member business 
lending cap--we estimate this number to be about 0.5 percent of the 
approximately 7,400 credit unions. Over 70 percent of credit unions 
report no member business loans at all. Those credit unions that are at 
or near the cap are the largest and most complex credit unions, and the 
business loans they make are often multimillion dollar, speculative, 
commercial loans--not small business loans. There is ample capacity for 
the remaining 99.5 percent of credit unions to expand their member 
business lending. The fact that only 4.5 percent of credit union assets 
are invested in commercial loans--a figure cited by advocates of S. 
509--does not suggest that the current cap of 12.25 percent is too low. 
What's more, there are numerous exceptions to the member business 
lending cap, including:

  <bullet>  Any loan of less than $50,000;

  <bullet>  Small Business Administration loans, including 7(a) and 504 
        SBA loans of up to $5 million;

  <bullet>  Nonmember loans and loan participations purchased from 
        other credit unions;

  <bullet>  Loans made by any credit union grandfathered by the 1998 
        law because they had a history of making business loans or were 
        chartered for the purpose of making business loans;

  <bullet>  Loans made by low income or community development financial 
        institutions; and

  <bullet>  Loans secured by the borrower's primary residence.

    With regard to this last exception, I note that some of the 
examples of supposed commercial credit union loans cited by advocates 
of S. 509 are actually loans secured by the borrower's residential 
mortgage, which are not subject to the cap. These loans are not small 
business loans based on the lender's understanding of the business's 
cash flow, debt coverage, and other factors that go into commercial 
credit underwriting. Rather, they are second mortgages based on the 
home's value as collateral should the business fail--a type of lending 
that is irresponsible at best.
    S. 509 is not driven by the need to bring credit to small 
businesses. It is driven by a small number of credit unions who want to 
increase their assets and their revenues while still enjoying their 
tax-exempt status.

Credit Unions Lack Expertise in Commercial Lending
    What's more, commercial lending is not for novices. It takes many 
years of experience and a firm grasp of the commercial environment to 
properly evaluate a business loan application, to value the collateral, 
and to understand the risk and price accordingly. Credit unions lack 
the experience and the expertise to safely conduct commercial lending, 
and their regulator, the NCUA, lacks experience in supervising 
commercial lending. I recognize that S. 509 includes provisions that 
are intended to ensure that credit unions have a track record--however 
limited--in commercial lending. These provisions are inadequate and 
leave too much discretion to the NCUA. As we emerge from the financial 
crisis and economic recession, this is the wrong time to jeopardize the 
safety and soundness of our financial system.

Credit Unions Not Fulfilling Their Tax-Exempt Mission
    The purpose of the cap on member business loans established by the 
1998 law was to ensure credit unions would focus on serving members of 
modest means, not commercial lending. Numerous independent studies have 
concluded that credit unions are not fulfilling their core mission.
    A 2005 study by the National Community Reinvestment Coalition 
determined that banks do a better job of fulfilling the credit unions' 
mission than the credit unions. The study highlighted how banks 
``consistently exceed credit unions' performance in lending to women, 
minorities, and low and moderate-income borrowers and communities.'' A 
2003 Government Accountability Office study found that credit unions 
serve a more affluent clientele than banks. This GAO study concluded 
that ``credit unions overall served a lower percentage of households of 
modest means than banks.''
    Another study by the Woodstock Institute concluded that credit 
unions serve a higher percentage of middle and upper-income customers 
than lower-income households. Similarly, a study by the Virginia 
Commonwealth University concluded that credit unions tend to serve a 
higher proportion of wealthier households in their customer base.
    The recent push by many credit unions into payday lending makes a 
travesty of their original tax-exempt mission. A recent investigation 
conducted by the Washington Post documents credit union payday lending 
abuses. While many credit unions offer short term, small dollar loans 
under reasonable terms, some credit union products are nearly as 
predatory as those offered by a store front check casher. The Post 
identified at least 15 credit unions that offer high cost loans closely 
resembling payday loans. In particular, some credit unions earn 
commissions by acting as fronts for third party lenders with names such 
as ``QuickCash'' and ``CU on Payday.''
    Credit unions' involvement in a Florida real estate investment 
scheme, dubbed ``Millionaire University,'' illustrates just how far 
credit unions have strayed from their original tax-exempt mandate to 
serve low and moderate income families and into risky business loans. 
In this scheme a number of credit unions granted speculative out-of-
market land development loans to residents from far away States. 
Borrowers became credit union ``members'' by paying a $5 dollar 
membership fee. Three of those credit unions failed. What original 
members were served in their home States of Colorado and Michigan when 
these credit unions made risky loans on Florida real estate? Congress 
cannot allow tax-exempt credit unions so stray even further into such 
risky business lending endeavors by increasing the business lending cap 
while remaining subsidized by taxpayers.
    Congress explicitly placed limits on the types of lending tax-
exempt credit unions can do for a good reason--so credit unions can 
focus their efforts on serving people of modest means that share a 
common bond. This is not only better for local communities; it is also 
a much safer form of lending.

Credit Union Lending Comes at a Significant Cost to Taxpayers
    The neglect of credit unions' original mission is unfair to the 
people credit unions were intended to serve; it's unfair to taxpaying 
community banks, but it's also unfair to all taxpayers. Some advocates 
of S. 509 claim that expanded credit union commercial lending would 
come at ``no cost to taxpayers.'' This is patently false. Lending by 
tax-exempt credit unions displaces lending by taxpaying banks, and 
thereby reduces tax revenue to the Government. In light of the urgent 
need to reduce the Federal budget deficit, we must consider the cost-
benefit analysis of the credit union tax exemption.
    The most comprehensive analysis of the credit union's Federal tax 
exemption was undertaken by the nonpartisan Tax Foundation in 2005. 
This analysis considered not only the cost of the tax subsidy, but what 
happens to the tax subsidy--i.e., whether and to what extent it is 
passed on to customers--and the effect of the subsidy on the 
marketplace for financial services. The Tax Foundation found that:

  <bullet>  The value of the tax subsidy was $2 billion in 2003--and 
        growing to over $3 billion annually today. This included not 
        only the direct tax expenditure that resulted from not taxing 
        the net revenue of credit unions, but the indirect effect on 
        tax revenues of a less competitive marketplace for financial 
        services. This is a more comprehensive analysis of the tax 
        subsidy than is provided by the Joint Committee on Taxation and 
        the Office of Management and Budget, which consider only the 
        static tax expenditure and exclude behavioral changes in the 
        marketplace. Still, JCT and OMB also confirm the dramatic 
        growth of the tax expenditure in recent years.

  <bullet>  The subsidy would cost the taxpayer over $32 billion over a 
        10-year budget window.

  <bullet>  The subsidy boosted the return on assets, for the average 
        credit union, by 50 basis points.

  <bullet>  Of those 50 basis points, only a meager 6 basis points are 
        passed onto customers in the form of lower interest rates on 
        loans. There is little to no effect on deposit rates. Eleven 
        basis points are absorbed by higher labor costs at a credit 
        union than at a comparable bank (due to inefficiencies).

  <bullet>  The remaining 33 to 44 basis points of subsidy accrue to 
        the credit union owners in the form of higher equity and larger 
        assets they use to expand rapidly.

    In summary, the Tax Foundation study shows that credit unions 
generally do not pass on their subsidy to customers. However, the 
competitive threat to community banks comes from the fact that credit 
unions have the option to use the subsidy to secure business they want. 
This is what I see repeatedly in my business. The credit union loan 
that I mentioned earlier, that was underpriced by 400 basis points, was 
surely made possible by the tax subsidy, and perhaps a failure to 
adequately evaluate the risk. Given the projected growth in the Federal 
budget deficit in the coming years and the threat it poses to our 
national prosperity, we can no longer afford a tax subsidy divorced 
from its original purpose that generates no public benefit and poses a 
threat to tax-paying community banks. This view is also shared by the 
Debt Reduction Task Force of the Bipartisan Policy Center, Chaired by 
former Senator Pete Domenici and former OMB Director Alice Rivlin, 
whose recent report recommends eliminating the tax exemption for credit 
unions. In addition, the Congressional Budget Office, in its annual 
``Budget Options'' report, noted the option of taxing large credit 
unions. Any serious effort to reduce the deficit must consider the 
merits of repealing the credit union tax exemption. While I have 
focused my comments on the Federal budget, the credit union tax 
exemption also deprives State and local governments, many of which are 
facing cuts to essential public services to remain solvent, of 
desperately needed revenue.
    The recent bailout of corporate credit unions further demonstrates 
the fundamental unfairness of the tax exemption. On September 24, 2010, 
three corporate credit unions were taken into conservatorship by the 
NCUA, bringing the total to five over a period of 18 months. Seventy 
percent of corporate credit unions assets were held under 
conservatorship. The corporate credit unions had invested in $50 
billion of subprime, private label, mortgage-backed securities, a 
failure of prudent lending illustrating that their judgment seems to 
have been no better than that of the Wall Street banks that also had to 
be bailed out. Had NCUA not intervened with the provision of a 
taxpayer-funded backstop, consumer credit unions would have suffered 
system-wide losses of an estimated $40 billion and as many as 30 
percent of Federal credit unions would have failed, according to NCUA 
estimates. Credit unions benefit from taxpayer resources when times are 
rough, but they do not contribute when they are profitable. This is an 
affront to taxpayers and to the community banks that sustain their 
communities and the Nation with hard-earned tax dollars. Community 
banks pay their fair share; credit unions should be held to the same 
standard.
    The case for repealing the exemption stands on its own merits as a 
deficit reduction measure. When considered in the context of the 
current effort by credit unions to expand their business lending powers 
and become the equivalent of banks, linking expanded lending powers to 
repeal of the tax exemption is a matter of fairness and free market 
principle. If credit unions seek to have no distinct business model 
verses commercial banks than Congress must tax them under any equitable 
tax system.

Credit Unions Could Convert to Mutual Thrifts
    The implicit reason for expansion of member business lending 
proposed in S. 509 appears to be that the current credit union charter 
is inadequate for the needs of some credit unions and their customers. 
However, ICBA believes that there is a far more appropriate alternative 
for them. If they need bank powers to better serve their customers, 
they should be encouraged to convert to a Federal savings association 
charter. Over 30 credit unions have taken advantage of this option, 
despite the substantial roadblocks that the National Credit Union 
Administration has put in the way of credit union-to-thrift 
conversions.

Conclusion
    Thank you again for convening this important hearing. As a 
community banker, I feel the direct impact of credit union commercial 
lending, so I'm grateful for the opportunity to provide my perspective.
    ICBA strongly urges this Committee to reject calls for new powers 
for the tax-subsidized credit union industry that will not, despite 
assertions to the contrary, expand small business credit or create 
jobs. ICBA adamantly opposes S. 509 as an unjustified and unfair credit 
union power grab at the expense of taxpaying community banks and 
individuals. Credit unions should be granted no new powers as long as 
they remain tax exempt and are not even meeting their statutory mission 
to serve individuals of modest means.
    Thank you for this opportunity to testify and express the views of 
the community banking sector.
                                 ______
                                 
                 PREPARED STATEMENT OF MICHAEL LUSSIER

  President and Chief Executive Officer, Webster First Federal Credit 
 Union, on behalf of the National Association of Federal Credit Unions
                             June 16, 2011

Introduction
    Good morning, Chairman Johnson, Ranking Member Shelby, and Members 
of the Committee. My name is Mike Lussier and I am testifying today on 
behalf of the National Association of Federal Credit Unions (NAFCU) 
where I currently serve as Chairman of the Board of Directors. I 
appreciate the opportunity to share my views with the Committee on 
credit unions and member business lending. I have served as President/
CEO of Webster First Federal Credit Union (Webster First), 
headquartered in Worcester, Massachusetts, since 1990. I earned my 
Bachelor's of Business Administration, majoring in Accounting from 
Bentley College and my Master's of Finance from Nichols College.
    Webster First is a community credit union with over 44,000 members 
and more than $570 million in assets. Founded as a Polish-ethnic credit 
union in January of 1928, Webster First changed to a community credit 
union in 1956 and became federally chartered in 1995.
    Throughout my career, I have been active in the credit union 
community. Prior to my chairmanship, I served on the Executive 
Committee of the NAFCU Board. Additionally, I have been a member of the 
Small Business Loan Review Board, was a Director for the Credit Union 
League of Massachusetts Insurance Agency, and served as Chairman of the 
Massachusetts Share Insurance Corporation Board.
    As you may know, NAFCU is the only national organization that 
exclusively represents the interests of the Nation's federally 
chartered credit unions. NAFCU is comprised of nearly 800 member owned 
and operated Federal credit unions. NAFCU member credit unions 
collectively account for approximately 62 percent of the assets of 
federally chartered credit unions. NAFCU and the entire credit union 
community appreciate the opportunity to participate in this discussion 
regarding member business lending and allowing credit unions to further 
assist in the economic recovery.
    Historically, credit unions have served a unique function in the 
delivery of necessary financial services to Americans. Established by 
an act of Congress in 1934, the Federal credit union system was 
created, and has been recognized, as a way to promote thrift and to 
make financial services available to all Americans, many of whom would 
otherwise have limited access to financial services. Congress 
established credit unions as an alternative to banks and to fill a 
precise public need--a niche that credit unions fill today for nearly 
93 million Americans.
    Every credit union is a cooperative institution organized ``for the 
purpose of promoting thrift among its members and creating a source of 
credit for provident or productive purposes.'' (12 USC 1752(1)). While 
more than 75 years have passed since the Federal Credit Union Act 
(FCUA) was signed into law, two fundamental principles regarding the 
operation of credit unions remain every bit as important today as in 
1934:

  <bullet>  Credit unions remain totally committed to providing their 
        members with efficient, low cost, personal service; and

  <bullet>  Credit unions continue to emphasize traditional cooperative 
        values such as democracy and volunteerism.

    Credit unions are not banks; they are better. The Nation's 
approximately 7,200 federally insured credit unions serve a different 
purpose and have a fundamentally different structure than banks. Credit 
unions exist solely for the purpose of providing financial services to 
their members--while banks aim to make a profit for a limited number of 
shareholders. As owners of cooperative financial institutions united by 
a common bond, all credit union members have an equal say in the 
operation of their credit union--``one member, one vote''--regardless 
of the dollar amount they have on account. These singular rights extend 
all the way from making basic operating decisions to electing the board 
of directors--something unheard of among for-profit, stock-owned banks. 
Unlike their counterparts at banks and thrifts, Federal credit union 
directors generally serve without remuneration--a fact epitomizing the 
true ``volunteer spirit'' permeating the credit union community.
    Credit unions continue to play a very important role in the lives 
of millions of Americans from all walks of life. As consolidation of 
the commercial banking sector has progressed with the resulting de-
personalization in the delivery of financial services by banks, the 
emphasis in consumers' minds has begun to shift not only to services 
provided but also--and in many cases more importantly--to quality and 
cost. Credit unions are second to none in providing their members with 
quality personal service at the lowest possible cost.
    Although it is not the subject of this hearing today, I would be 
remiss if I did not personally thank Senators Tester and Corker, and 
those who supported their recent efforts to try to bring needed changes 
to the Durbin debit interchange price-control provision that was added 
to the Dodd-Frank Wall Street Reform and Consumer Protection Act. Like 
member business lending, this issue is of great importance to credit 
unions and the consumers they serve, as it will have a direct impact on 
the ability of credit unions to meet the needs of their membership.

Background on Credit Union Member Business Lending and the Arbitrary 
        Cap
    When Congress passed the Credit Union Membership Access Act (CUMAA) 
(P.L. 105-219) in 1998, they put in place restrictions on the ability 
of credit unions to offer member business loans. Congress codified the 
definition of a member business loan and limited a credit union's 
member business lending to the lesser of either 1.75 times the net 
worth of a well-capitalized credit union or 12.25 percent of total 
assets. Also, pursuant to section 203 of CUMAA, Congress mandated that 
the Treasury Department study the issue of credit unions and member 
business lending.
    In January 2001, the Treasury Department released the study, 
``Credit Union Member Business Lending'' and found the following:

        `` . . . credit union's business lending currently has no 
        effect on the viability and profitability of other insured 
        depository institutions.'' (p. 41). Additionally, when 
        examining the issue of whether modifying the arbitrary cap 
        would help increase loans to businesses, the study found that 
        `` . . . relaxation of membership restrictions in the Act 
        should serve to further increase member business lending . . . 
        '' (p. 41).

    CUMAA also established, by definition, that a business loan of 
$50,000 and above is a member business loan that counts toward the cap. 
This number was not indexed and has not been adjusted for inflation in 
the nearly 13 years since enactment, eroding the de minimis level. 
Where many vehicle loans or small lines of credit may have been 
initially exempt from the cap in 1998, many of those that meet the 
needs of small business today, are now included into the cap due to 
this erosion. To put this in perspective relative to inflation since 
1998, what cost $50,000 in 1998 costs $69,000, using the May consumer 
price index data. That is a 38 percent rate of inflation change that is 
completely ignored by current law and which greatly hamstrings a credit 
union's ability to meet its members' needs.
    Many in the banking community who oppose the aid to small business 
that changes to the cap would bring often try to cite safety and 
soundness issues with credit unions and business lending. Perhaps the 
better question would be whether a number of banks should be making 
commercial business loans. An examination of 1st quarter 2011 call 
report data shows that credit unions with MBL's have the same 
annualized net charge-off rate for business loans (1.12 percent) as 
commercial lending banks. Furthermore, they are actually better 
equipped for the charge-offs as they have a higher coverage of 
delinquent loans with their allowance account (101.72 percent) than 
those commercial lending banks (57.85 percent). NAFCU would welcome the 
opportunity to appear before the Committee on a hearing on this topic 
examining the banks.
    The banking industry also argues that the credit union MBL cap 
should not be raised due to the credit union Federal tax exemption. 
What the banking industry conveniently forgets to mention is that a 
large number of banks do not pay corporate Federal income tax because 
of their Subchapter S status. There are approximately 2,377 Subchapter 
S banks that avoid Federal income taxes today. What the banking trades 
don't want you to know, is that one estimated value of the Subchapter S 
Federal tax break for banks is $2.05 billion for 2010, which is 
actually greater than the estimated value of the entire credit union 
tax expenditure ($1.27 billion) for FY2010 as included in the 
President's FY2012 budget message. Perhaps the issue the Committee 
should be holding hearings on is the unfair advantage banks have over 
credit unions due to their Subchapter S Federal tax break.

The Arbitrary Cap Today
    Credit unions have been critical in helping our country recover 
from the financial crisis, and members of Congress on both sides of 
aisle recognize that they were not the cause of it. Many credit unions 
have capital to lend small businesses across the country and are in a 
position to further assist in recovery efforts. However, due to the 
outdated and arbitrary member business lending cap, their ability to 
help stimulate the economy by providing credit to small businesses is 
hampered. Removing or modifying the outdated and arbitrary credit union 
member business lending cap would help provide needed economic 
stimulus.
    Some short-sighted critics claim that only a limited percentage of 
credit unions are actually at the arbitrary member business lending cap 
and therefore nothing needs to be done. This view fails to see the big 
picture of how the arbitrary cap acts as a deterrent for efforts to 
increase business lending and create American jobs. Successful business 
lending programs like ours at Webster First often require investment in 
human and other resources by the institution. Those credit unions that 
have some member business lending but are not near the cap, have an 
artificial disincentive in the arbitrary cap, because, if they are 
successful in growing and expanding their business lending program, 
they will ultimately reach this arbitrary barrier forcing them to scale 
down what they invested in to build up.

Member Business Lending at Webster First FCU
    Webster First has been at the outdated and arbitrary credit union 
member business lending cap for almost a year now. On the business 
lending side, we offer numerous products including real estate loans, 
lines of credit, small business equipment loans, auto and truck loans, 
and a few small stores that do floor plans. We have a well diversified 
portfolio with minimal delinquencies. Our commercial losses have also 
been minimal as we have a sincere and devoted membership.
    At Webster First, we understand that member business lending is not 
about credit unions, but about helping small businesses and the jobs 
they create. It is unfortunate that we cannot handle all the requests 
we receive due to the outdated and arbitrary member business lending 
cap. It is with our liquidity, strong surplus, and experienced staff, 
that Webster First could continue to help the small businesses in our 
community, many of which feel threatened and treated unfairly by other 
institutions.
    Webster First has made some great in-roads into business lending 
and has assisted multiple families and businesses in becoming quite 
successful. For example, we helped an individual purchase an older gas 
service station from his parents. He was able to upgrade all his pumps, 
computer services, and revamp his store. It now includes a coffee shop, 
package store, and a 10 pump service station. His success allowed him 
to then upgrade the unused property behind the station for storage 
rental units which quickly became 90 percent utilized. He recently sold 
the property for a substantial profit and has now acquired other 
properties to expand his business. As the Committee knows, business 
expansion means job creation.
    We have assisted many real estate owners who own multifamily units 
in refinancing their existing mortgages from other institutions. These 
institutions refuse to allow them to rewrite due to the fear that real 
estate values have not hit bottom. Many of these property owners have 
plenty of cash, net worth and positive cash flow, but the banks they 
approached for financing declined the entrepreneurs' requests and would 
not work with them. We put them through an intensive analysis, document 
their credit and payment history, and have been able to revive the 
possibility of continued ownership via lesser rates, smaller payments, 
and continued positive cash flow.
    Recently, Latino radio station owner wanted to expand his radio 
station ownership to acquire some local radio stations in order to 
better accommodate the Latino market in Worcester. Because of the risk 
associated with radio stations, many banks would not consider his 
request. We reviewed the contracts, cash flows, equity position, and 
collateral, and were able to finance his dream. He is now the largest 
Latino radio station owner in all of Massachusetts. We have not only 
assisted this individual, but in working with him, we were also able to 
increase our marketing and business opportunities within the under-
banked community. We have since put a credit union branch in this 
underserved area.
    One of the newest areas we have been able to enter is small-town 
downtown rehabilitation. We recently hired an individual who is well 
versed in SBA lending. He is attempting to assist those within our 
community who may be better served by using our products along with SBA 
products. As the Committee is aware, guaranteed portions of SBA loans 
do not count toward the outdated and arbitrary credit union member 
business lending cap. As the arbitrary cap has hamstrung our efforts to 
meet the member business lending needs of our membership, SBA loans 
have at least offered some alternative until the outdated and arbitrary 
restrictions can be changed.

Credit Union Member Business Lending Legislation in the 112th Congress
    In March 2011, Senator Mark Udall of Colorado introduced bipartisan 
legislation, the Small Business Lending Enhancement Act (S.509), which 
would raise the arbitrary credit union member business lending cap to 
27.5 percent of total assets, up from 12.25 percent, and help stimulate 
the Nation's struggling economy by increasing access to credit for 
small business owners. This important legislation has 19 Senate 
cosponsors, including Majority Leader Reid. Identical legislation (H.R. 
1418) has been introduced in the House by Representative Ed Royce of 
California.
    The Small Business Lending Enhancement Act is a well thought out 
solution that includes important provisions to ensure that safety and 
soundness concerns are addressed. This bill is not about helping credit 
unions, it is about helping small businesses.
    In order to see its cap increased, a credit union would need to 
meet strict eligibility requirements to gradually increase its member 
business lending portfolio, including: being well capitalized 
[currently at least a 7 percent net worth ratio]; having at least 5 
years of member business lending experience; must be at or above 80 
percent of the current 12.25 percent cap for at least 1 year before 
applying; and, must be able to demonstrate sound underwriting and 
servicing based on historical performance and strong management. The 
requirements in this legislation mirror those sought by Senator Mark 
Udall last year, when his efforts were endorsed by Treasury Secretary 
Timothy Geithner and NCUA Chairman Debbie Matz.
    As evidenced by the strict eligibility requirements outlined above, 
the Small Business Lending Enhancement Act was specifically tailored to 
address concerns that raising the current cap could somehow create 
safety and soundness issues.
    Unlike efforts enacted by Congress to provide $30 billion to 
promote business lending at community banks, it is worth noting that 
raising the arbitrary and outdated member business lending cap for 
credit unions only scores at a cost of $77 million over 5 years 
according to a 2010 CBO estimate. Furthermore, this cost does not take 
into account added tax revenue that would be gained from the jobs 
created by enacting this legislation. This pales in comparison to the 
price tag for what Congress did for the community banks in the last 
Congress when the Small Business Jobs Act created a $30 billion ``Small 
Business Lending Fund'' (SBLF) with the intention of encouraging 
community banks to lend to small businesses. To date the program has 
created very few if any jobs, and has done little to spur economic 
growth for its $30 billion price tag. Furthermore, it has been reported 
that only about 30 percent of eligible banks have expressed interest in 
participating. During recent hearings in the Senate Small Business 
Committee, it came to light that a large number of the banks that have 
applied for the program also received taxpayer funds from the Troubled 
Assets Relief Program (TARP). Clearly this effort to promote business 
lending at community banks has had a lack of success.
    Credit unions stand ready to do their part in continuing to assist 
America's small businesses. Failing to consider legislation to raise 
the arbitrary member business lending cap last Congress was a missed 
opportunity to further assist small business and help move the economy 
in a positive direction. NAFCU and its member credit unions ask that 
the Small Business Lending Enhancement Act be considered by the Banking 
Committee and on the Senate floor as soon as possible.

Conclusion
    The artificial credit union member business lending cap established 
in 1998 is arbitrary and outdated. The need for such a cap was 
questioned by the Treasury Department as far back as 2001. While NAFCU 
believes that no statutory cap should be in place, a number of credit 
unions like mine, and the millions of members we serve, would benefit 
from the enactment of the Small Business Lending Enhancement Act. This 
legislation would provide a practical and well-thought out approach to 
raising the arbitrary threshold, while addressing concerns about rapid 
growth and safety and soundness. NAFCU would also support raising the 
de minimis $50,000 definition of a member business loan as it has 
eroded upon enactment last century.
    We thank you for your time and the opportunity to testify before 
you here today on this important issue to credit unions and our 
Nation's economy. I would welcome any questions that you may have.
                                 ______
                                 
                PREPARED STATEMENT OF STEPHEN P. WILSON

Chairman and Chief Executive Officer, LCNB National Bank, on behalf of 
                    the American Bankers Association
                             June 16, 2011

    Chairman Johnson, Ranking Member Shelby, and Members of the 
Committee, the American Bankers Association appreciates the opportunity 
to testify at the Senate Banking Committee hearing entitled ``Credit 
Unions: Member Business Loans.'' The American Bankers Association (ABA) 
represents banks of all sizes and charters and is the voice for the 
Nation's $13.4 trillion banking industry and its two million employees.
    ABA is strongly opposed to recent efforts by the credit union 
industry to redefine the credit union charter in ways that would 
effectively turn credit unions into tax-exempt banks. This effort, most 
recently embodied in S. 509, the ``Small Business Lending Enhancement 
Act of 2011,'' would allow the NCUA to permit credit unions that are 
within 80 percent of their member business lending (MBL) cap to 
increase this cap and take on significantly more business lending. This 
would allow a new breed of credit union institutions to more 
aggressively pursue business customers through large commercial and 
real estate loans. It would also serve as an invitation to credit 
unions that are not near this cap now to focus on business lending--to 
the exclusion of consumer lending--in order to be eligible for an 
increase in their business lending cap.
    Under current law, credit unions have an aggregate MBL cap of 12.25 
percent of assets. Business loans under $50,000 do not count against 
this cap of 12.25 percent, nor do many other types business loans--
leaving ample room for credit unions to carry out their business 
lending strategy. There is a limitation on business lending, because 
credit unions are tax exempt and this tax exemption is meant to be 
targeted at people of small means.
    S. 509 would increase the aggregate business loan cap for 
qualifying credit unions to 27.5 percent of assets--more than double 
the current cap, and greater business lending authority than Federal 
thrifts. Thrifts are currently limited to 20 percent of total assets, 
provided that amounts in excess of 10 percent of total assets may be 
used only for small business loans. Credit unions would be allowed to 
further leverage their tax advantage and compete directly with tax-
paying banks.
    Furthermore, S. 509 does nothing to protect members' interests with 
regard to consumer loans, which would necessarily diminish over time as 
credit unions add business lending. In other circumstances where a 
credit union will move its focus away from consumer lending, NCUA 
requires ``a clear and conspicuous disclosure'' of this change. NCUA's 
own regulations governing the conversion of a credit union to a mutual 
savings bank have greater protection of members' interests regarding 
consumer loans than S. 509. NCUA regulations require:

        a clear and conspicuous disclosure of how the conversion from a 
        credit union to a mutual savings bank will affect the 
        institution's ability to make non- housing-related consumer 
        loans because of a mutual savings bank's obligations to satisfy 
        certain lending requirements as a mutual savings bank.

    A credit union that applies and receives the authority to increase 
business lending under S. 509 almost certainly would reduce its non- 
housing-related consumer loans. However, the bill does not require the 
credit union to notify members in a clear and conspicuous manner that 
they could see a reduction in consumer loans. And the bill does not 
require the members of a credit union to approve in the affirmative an 
expansion in business lending, an action that would essentially create 
a tax exempt bank. Credit unions that seek a mutual savings bank 
charter must both mail such a disclosure to their members and have an 
affirmative vote.
    Make no mistake about it, S. 509 is nothing less than legislation 
that would allow a credit union to look and act just like a bank, 
without the obligation to pay taxes or have bank-like regulatory 
requirements, such as the Community Reinvestment Act, applied to them. 
Provisions included in S. 509 that try to safeguard this high-risk form 
of lending are not the issue; rather, the issue is that credit unions 
have a limited charter, focused on people of small means, for which 
credit unions have a tax exemption.
    Members of Congress have recognized this fundamental problem. As 
Senator Kerry (D-MA) stated from the Senate floor, credit unions ``were 
never intended to be simply alternative, tax-exempt commercial banks.'' 
\1\ Other senators have agreed. \2\
---------------------------------------------------------------------------
     \1\ Congressional Record, July 28, 1998, S 9095.
     \2\ Congressional Record, July 28, 1998, S 9019.
---------------------------------------------------------------------------
    Indeed, there is a strong legislative history that supports the 
unique charter of credit unions with very specific restrictions on 
business lending. These restrictions were put in place to protect 
credit unions from lending that could pose serious threats to safety 
and soundness. In addition, they were put in place to ensure that 
credit unions remained primarily focused on individuals. Even so, the 
law has always made a place for MBL, although with specific 
restrictions to keep credit unions focused on the task at hand. In the 
last debate in 1998 over what that level should be, Senator Reed (D-RI) 
expressed reservations about the hole that the exemption of loans under 
$50,000 would create:

        I am concerned that loans under $50,000 would not be counted 
        toward the 12.25 percent cap. As a result, it is possible that 
        credit unions could engage in commercial lending to a much 
        greater extent than the limit imposed in the bill. \3\ 
        [emphasis added]
---------------------------------------------------------------------------
     \3\ Senate Report 105-193, May 21, 1998, p. 29.

    This congressional concern is well founded and echoed by many 
within the credit union industry itself. Business lending is risky 
business, and should be limited for all credit unions. I will address 
this risk later in my testimony.
    Credit unions with strong business lending opportunities can take 
advantage of these opportunities and reach out with credit in their 
communities through a method that is already available--by converting 
to a mutual savings bank charter. This charter provides the flexibility 
credit unions desire and preserves the mutual-member focus that is the 
trademark of the credit union charter. For example, in 2009, Coastway 
Credit Union in Cranston, RI, converted to a mutual savings bank so 
that it could make more business loans. Viewpoint Bank, formerly 
Community Credit Union in Plano, TX, which converted to a mutual 
savings bank in 2005, has taken advantage of its greater business 
lending authority--almost 18 percent of its assets are in business 
loans. I will give more detail on this process later in my testimony.
    During this hearing, we will also hear about the loans to very 
small businesses that credit unions want to make but supposedly cannot. 
While the rhetoric speaks of serving the small business man or woman, 
the reality is that some credit unions are making large dollar loans to 
businesses, and now they want to make even larger loans. These new-
breed credit unions aggressively pursue business customers through 
large commercial and real estate loans.
    Credit unions' current tax-exempt status and lack of equivalent 
regulation have created huge competitive inequities in the local 
marketplace. Some aggressive credit unions have made business lending a 
top priority as they seek to rapidly grow the institutions--making 
loans that would be made by taxpaying financial institutions. According 
to NCUA's own data, today, there are more than 173 credit unions with 
$1 billion or more in assets, and credit unions with more than $500 
million in assets hold 63 percent of the industry's assets. In the 
majority of the States in this country, a credit union would rank among 
the top ten banks. As a former president of a State credit union 
association said: ``In a lot of places, credit unions are the major 
financial institution.'' \4\ Unfortunately, provisions to expand 
business lending for those credit unions most focused on business 
lending would further exacerbate these competitive inequities.
---------------------------------------------------------------------------
     \4\ ``CUs, Banks Put Up Dueling Bills in Oregon'', American 
Banker, March 25, 2003.
---------------------------------------------------------------------------
    There are four key points I would like to make today:

  <bullet>  Raising the credit union legal business lending cap is not 
        necessary for credit unions to meet small business members' 
        credit needs.

  <bullet>  Expanding the lending cap is inconsistent with the credit 
        union mission of serving consumers, especially those of modest 
        means.

  <bullet>  Business lending is riskier and raises serious safety and 
        soundness concerns.

  <bullet>  There is a better option for credit unions that want to 
        expand business lending--convert to a mutual bank charter.

I. Raising the credit union legal business lending cap is not necessary 
        for credit unions to meet members' credit needs
    Credit unions argue that greater business lending authority would 
enable them to meet the needs of small businesses seeking credit. Such 
arguments are simply not true. Under current law, business loans under 
$50,000 do not count against the aggregate business loan cap of 12.25 
percent of assets.
    Let me state this more clearly. Credit unions can already make all 
the business loans they want under $50,000. That means that credit 
unions start at zero when they make further business loans over 
$50,000.
    Moreover, the guaranteed portion of Small Business Administration 
loans does not count against the aggregate business loan limit, nor do 
loans secured by 1 to 4 family primary residences. NCUA has 
aggressively provided additional exclusions from the cap by regulatory 
fiat. For example, in October 2003, NCUA excluded business loans made 
to nonmembers from the cap, allowing more loans by credit unions to 
circumvent the aggregate business loan cap. As of March 2011, credit 
unions reported extending almost $6.7 billion in nonmember business 
loans, which account for almost 18 percent of all outstanding credit 
union business loan balances. This represents a three-fold increase in 
nonmember business loans on the books of credit unions in 6 years. The 
concerns raised by Senator Reed are even more troubling today, as there 
is even more lending under the radar and outside the limits that 
Congress had imposed.
    Clearly, there is considerable opportunity under current law for 
credit unions to meet the needs of small business customers. 
Furthermore, only a few credit unions--96 out of 7,292 credit unions--
are within 80 percent of their congressionally mandated cap of 12.25 
percent of assets, as of year-end 2010, and could be affected by S. 
509. This was acknowledged by NCUA Chairman Deborah Matz last year in a 
hearing: ``It's a small number that are at their cap.'' \5\
---------------------------------------------------------------------------
     \5\ Senate Committee on Banking, Housing, and Urban Affairs. 
``State of the Credit Union Industry'', December 9, 2010.
---------------------------------------------------------------------------
    The minority who are at or near this cap are a new breed of 
institution that bears little resemblance to traditional credit unions. 
These ``morphed'' credit unions, which seek out large commercial 
customers, are a far cry from traditional credit unions, which have 
remained true to their credit union mandate to serve people of small 
means.

II. Business lending is risky and raises serious safety and soundness 
        concerns
    Lifting the business lending cap and allowing more large business 
loans also raises serious safety and soundness concerns. As credit 
unions have aggressively pursued business lending options, business 
loan delinquencies have risen and some credit unions have failed. Even 
other credit unions are concerned about the impact that increased 
business lending will have on the credit union industry as a whole. 
Dale Kerslake, President and CEO of Cascade Federal Credit Union (Kent, 
WA) wrote:

        Doubling [member business lending (MBL)] limits for natural 
        person credit unions is not something a majority of credit 
        unions want or need. Yet, if a minority of powerful credit 
        unions and industry trade associations get their way, which 
        they usually do, MBL could easily become the next industry 
        crisis . . . The proposed MBL limit increase . . . lacks 
        safeguards for the thousands of credit unions that pay into 
        NCUSIF and do not do business lending. \6\
---------------------------------------------------------------------------
     \6\ ``MBL Limits--Be Watchful of What Others Wish For'', Credit 
Union Times, February 10, 2010.

    Ron Burniske echoed these comments, after his credit union, 
Chartway Federal Credit Union (Virginia Beach, VA), took over a failed 
---------------------------------------------------------------------------
Utah credit union:

        We shouldn't be doing strip centers, corporate buildings and 
        land development. That's not who we are. That's the banks' 
        business. \7\
---------------------------------------------------------------------------
     \7\ ``1 deal down, at least 1 to go for Chartway'', Inside 
Business, January 11, 2010.

    Credit unions have good reasons to be concerned. As of March 2011, 
4.22 percent of all credit union member business loans were at least 60 
days or more past due. An additional $2.1 billion in business loans 
have been modified. As a concrete example, America First FCU 
(Riverdale, UT) recently reported that 11.4 percent of its $450 million 
of member business loans were 12 months or more past due. If America 
First were regulated by bank regulators, these loans would have been 
charged off.
    Testifying before the Senate Banking Committee on December 9, 2010, 
NCUA Chairman Debbie Matz stated: ``Presently, 270 of the 633 credit 
unions which have a 3, 4, or 5 CAMEL rating and make member business 
loans, MBLs are the primary or secondary contributing factor for the 
supervisory concern.'' This means that approximately 30 percent of all 
credit unions that make business loans were a supervisory concern.
    Here are some examples of large business loans that have gone bad:

  <bullet>  Centris FCU (Omaha, NE) held $11 million in bad loans to 
        Great Adventures Water Resort.

  <bullet>  Denali Alaskan FCU filed suit against a prominent real 
        estate developer over $17 million in delinquent loans.

  <bullet>  Telesis Credit Union (Chatsworth, CA) was foreclosing on a 
        $3 million loan on a mixed-use office building in Memphis, 
        Tennessee. \8\
---------------------------------------------------------------------------
     \8\ ``Telesis' Loan Recoup Attempts Go On'', Credit Union Times, 
December 15, 2010.

    In fact, on November 23, 2010, the NCUA's Office of the Inspector 
General released a report summarizing the 10 costliest natural person 
credit union failures. In 7 of these 10 failures, business lending was 
a major contributor to the failure. \9\
---------------------------------------------------------------------------
     \9\ Appendix A provides more details about what the Inspector 
General discovered.
---------------------------------------------------------------------------
    Since the report was issued, NCUA placed $1.6 billion Texans Credit 
Union into conservatorship. The credit union, starting in 2003, grew 
its commercial real estate loan portfolio very rapidly to almost $800 
million by 2007. It funded projects hundreds of miles away: a mall 
project in Illinois, a luxury condo development in Telluride, Colorado, 
and subdivisions in Mississippi. \10\ Eventually, some of these 
commercial real estate projects failed. This action arose from faulty 
lending on commercial real estate projects--some of which were outside 
of its market area.
---------------------------------------------------------------------------
     \10\ ``The Rise and Fall of Texans Credit Union'', Dallas Morning 
News, May 8, 2011, p. D1.
---------------------------------------------------------------------------
    Moreover, the General Accountability Office in 2003 warned about 
the danger of business lending by credit unions and it was skeptical 
that NCUA was up to the challenge to monitor the expansion of credit 
union business lending. \11\ It should come as no surprise that the 
Inspector General's Material Loss Review found adequate oversight often 
missing: business loans were made to nonmembers; credit unions exceeded 
the legal Member Business Loan cap of 12.25 percent; credit unions 
violated the loan-to-one borrower limit; and credit unions made 
business loans without a Member Business Loan policy. Expanding credit 
union business lending only encourages larger, riskier loans, without 
any assurance of adequate oversight.
---------------------------------------------------------------------------
     \11\ ``Credit Unions: Financial Condition Has Improved, but 
Opportunities Exist To Enhance Oversight and Share Insurance 
Management'', U.S. General Accounting Office, October 2003 (GAO-04-91), 
p. 49.
---------------------------------------------------------------------------
    In addition, NCUA in 2003 authorized credit union service 
organizations (CUSOs) to originate business loans as a permissible 
power, even though these third party vendors are not subject to NCUA 
supervision. Today, many credit unions hold business loans that were 
originated by these credit union service organizations. For example, CU 
Business Group reported in 2009 that it has underwritten over $2 
billion in business loans since its inception in 2002. Additionally, 
Michigan Business Connection, a CUSO supporting more than two dozen 
credit unions, reported managing a portfolio of over $200 million. 
Cooperative Business Services, LLC, a CUSO owned by nine Ohio credit 
unions, reported on its Web site that it recently provided funding for 
$3.56 million investment property.
    Unfortunately, loans originated by CUSOs have resulted in credit 
union failures. Credit Union Times quotes NCUA Board Member Gigi Hyland 
addressing the National Association of Credit Union Service 
Organizations earlier this year regarding losses at Texans CU arising 
from its business lending CUSO as saying: ``We could see things were 
going wrong but we had to go through the side door and through the maze 
to get there. By the time we got there, it was too late.'' \12\
---------------------------------------------------------------------------
     \12\ ``NCUA Sells Importance of Increased CUSO Authority To Stay 
Ahead of Losses'', Credit Union Times, May 4, 2011.
---------------------------------------------------------------------------
III. Expanding the business lending cap is inconsistent with the credit 
        union mission of serving consumers, especially those of modest 
        means
    The real goal of expanded business lending is for some aggressive 
credit unions to make even more large dollar loans. The truth is that 
these new-breed credit unions have made business lending a top priority 
as they seek to rapidly grow the institution--making loans that any 
taxpaying financial institution would want to make. The fact that a few 
credit unions are hitting the Congressionally mandated limits on 
business lending is largely because they are making large commercial 
loans--including those to businesses out of their market area.
    A dramatic example of just how far these credit unions have gone is 
the financing of Thumper Pond, a resort development in Minnesota that 
went bankrupt. This luxury resort featured a golf course, spa, water 
park, hotels, and a planned condominium community. The resort was 
financed by a large commercial loan made by Spire Federal Credit Union 
and is clearly counter to the chartered mission of serving people of 
modest means. Moreover, the resort is located over 200 miles from the 
credit union's headquarters. Is this the kind of loan that should be 
tax-subsidized?
    Congress put these current limits in place after considerable 
debate to ensure credit unions remained focused on individuals, 
especially people of small means. In fact, the Senate Report 
implementing the Credit Union Membership Access Act of 1998 stated that 
the limits `` . . . are intended to ensure that credit unions continue 
to fulfill their specified mission of meeting the credit and savings 
needs of consumers, especially persons of modest means, through the 
emphasis on consumer rather than business loans.'' \13\
---------------------------------------------------------------------------
     \13\ Senate Report 105-193, May 21, 1998, pp. 9-10.
---------------------------------------------------------------------------
    Cases like the Thumper Pond fiasco show that credit unions are 
leveraging their tax-exemption to provide loans to large businesses 
that already have plenty of credit options available through taxpaying 
banks. This credit union tax expenditure is neither focused nor 
contained; it takes revenue from banks that compete for these same 
loans--revenue that would be taxed and would help to offset some of the 
current Federal budget deficit.

IV. There is a better option for credit unions that want to expand 
        business lending--convert to a mutual bank charter
    While credit union rhetoric suggests that without greater business 
lending authority there are no options for these institutions to grow 
and better serve their customers, the reality is that a very viable 
option is available today through switching to a mutual savings bank 
charter--a route that some credit unions have already taken. This 
charter provides greater flexibility, still preserves the mutual-member 
focus that credit unions find desirable, and is accompanied by the 
effective and experienced supervision of traditional banking 
regulators.
    The savings bank charter would give credit unions the ability to 
expand their business lending and retain their mutual structure. 
However, NCUA actively impedes the ability of credit unions to engage 
in charter choice. Removal of NCUA's obstructionism is a far better 
alternative to enabling more business lending than a wholesale change 
in powers that will benefit only a small proportion of large credit 
unions. Facilitating conversion to a mutual savings bank charter will 
benefit those credit unions that have outgrown their charter, and will 
also improve the fiscal position of the United States as these entities 
pay their fair share of taxes.

Conclusion
    Increased business lending powers are not necessary to meet the 
credit needs of businesses. Credit unions have ample authority under 
current law to make all the small business loans they want. S. 509 will 
empower credit unions to make larger commercial loans and cause credit 
unions to stray even further from their mission to serve consumers, 
especially those of modest means. Increasing the business lending cap 
will raise serious safety and soundness concerns.
    Rather than expanding the business lending authority of credit 
unions, Congress should close the loopholes that are allowing credit 
unions to make business loans to nonmembers to circumvent the aggregate 
business loan cap. Additionally, Congress should rightfully be 
concerned about the increasing use of third-party vendors by credit 
unions to originate business loans, as CUSOs are a ticking time bomb 
waiting to explode given the fact that NCUA does not have authority to 
regulate these entities.
    Against a backdrop where nontraditional credit unions forsake the 
common bond in favor of fast growth, and where energies are diverted to 
favoring the well-off and businesses rather than meeting their 
chartered obligation to serve people of modest means, it is no surprise 
that ABA opposes expansion of credit union powers. To allow such 
expansion will only move the new breed of credit unions further and 
further away from their mandated mission.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       RESPONSES TO WRITTEN QUESTIONS OF SENATOR MERKLEY
                       FROM DEBORAH MATZ

Q.1. Supplemental Capital--My staff and I have recently heard 
from a number of Oregon credit unions about the need to 
increase capital at credit unions. Many credit unions--like 
community banks--have seen an influx in deposits recently, and 
like community banks, face challenges in raising the capital 
they need to back those deposits and the loans that come from 
them. For community banks, as you may know, I worked with a 
number of my colleagues to help put into place the Small 
Business Lending Fund, so community banks could gain access to 
the additional capital they need to meet the lending needs of 
small business. I'm wondering whether we need to similarly 
consider additional capital for credit unions.
    Specifically, as you know, credit unions are only allowed 
to accumulate capital through retaining earnings year on year 
(much the same way a de novo (newly licensed) bank does in many 
States, including Oregon). However, this can be a real 
challenge for credit unions in a low interest rate environment. 
If, like community banks, they are taking in many new deposits 
from members and making new loans, they need capital to back 
those loans and stay within their leverage ratios. Clearly, if 
they cannot bring in new capital, then we could potentially 
face safety and soundness problems.
    What can you share with the Committee, at this preliminary 
stage, about the need for capital in our credit union sector 
and what role can supplemental capital, carefully constructed, 
play in ensuring greater safety and soundness at credit unions?

A.1. This is a timely question that I appreciate having the 
opportunity to address. I have previously encouraged Congress 
to create a new opportunity for well-capitalized, qualifying 
credit unions, as determined by the National Credit Union 
Administration, to issue alternative forms of capital to 
supplement their retained earnings. This change would allow 
credit unions to grow stronger especially in difficult economic 
times and, in turn, lower the risk to the National Credit Union 
Share Insurance Fund, increasing safety and soundness for the 
credit union industry.
    As you point out in your question, some financially 
healthy, well-capitalized credit unions that offer desirable 
products and services are discouraged from marketing them too 
vigorously out of concern that attracting share deposits from 
new and existing members will inflate the credit union's asset 
base, thus diluting its net worth for purposes of prompt 
corrective action. In effect, the reward for their success in 
attracting new shares is the risk of a demotion to a lower net 
worth category if accepting those shares drives down the credit 
union's net worth ratio.
    I believe two legislative remedies would help reverse the 
disincentive to accept new share deposits--one that addresses 
the total assets denominator of the net worth ratio, and a 
second that addresses the retained earnings numerator.
    With respect to the denominator, I have encouraged Congress 
to consider allowing qualifying credit unions to exclude from 
the ``total assets'' denominator those assets that have a zero 
risk-weighting, exposing the credit union to virtually no risk 
of loss. An example of such ``no-risk'' assets is short-term 
Treasury securities.
    To qualify for exclusion of no-risk assets from its 
denominator, I have proposed that a credit union should be 
required to meet at least two criteria:

  1.  Maintain a minimum net worth classification, as 
        determined by the NCUA Board, calculated before 
        excluding no-risk assets; and

  2.  Show that share growth is the cause of its declining net 
        worth ratio, i.e., that the decline is not due to poor 
        management or material unsafe or unsound practices.

    Permitting the total assets denominator to exclude no-risk 
assets would moderate the growth of assets due to the inflow of 
new shares, while still imposing prompt corrective action that 
is appropriate to the circumstances.
    With respect to the numerator of the net worth ratio, I 
would encourage Congress to consider authorizing qualifying 
credit unions, as determined by the NCUA Board, to issue 
alternative forms of capital to supplement their retained 
earnings. To ensure the proper authority, alternative forms of 
capital would be subject to necessary regulations addressing 
safety and soundness criteria, investor protections, and any 
impact on the cooperative credit union governance model.
    Current law already permits low-income designated credit 
unions to offer uninsured secondary capital accounts to 
nonmembers (e.g., 12 USC 1757(6) and 12 CFR 701.34). Modifying 
the Federal Credit Union Act to permit qualifying credit unions 
to offer uninsured alternative capital instruments subject to 
regulatory restrictions, and expanding the law's definition of 
``net worth'' to include those instruments, would allow well-
managed credit unions to better manage net worth levels under 
varying economic conditions. Together, these legislative 
remedies would go a long way toward removing an obstacle to 
accepting new shares, thereby enhancing consumers' access to 
the benefits of credit union service.

Q.2. Servicing Rights, Foreclosure, and Member/Customer 
Relationship--I've heard from my Oregon credit unions about the 
importance of being able to securitize loans while retaining 
the servicing rights, which is where the member relationship is 
important. In that servicing relationship, credit unions--and 
community banks--who hold servicing rights must have seen some 
foreclosures and other problems. Can you share any insight on 
the experience of credit unions and community banks that do 
hold servicing rights in working out problematic loans? In your 
experience, are credit unions and community banks more willing 
to follow basic practices like having a single point of 
contact, stopping the dual track of modification and 
foreclosure, and utilizing third-party review for modification? 
Anything you can share will be enlightening as we go through an 
important national debate about what can be done now to fix the 
terrible foreclosure crisis harming our families and dragging 
our economy down.

A.2. Because NCVA's regulatory oversight does not extend to 
community banks, I will focus on the experience of credit 
unions.
    In late 2010, NCUA conducted a sweep review of the largest 
credit union residential real estate loan servicers. The focus 
was foreclosure procedures and practices that could be 
detrimental to credit union members. As a result of this sweep 
review, we reached the overall conclusion that the issues 
reported in non- credit union mortgage servicers were not 
prevalent in credit unions.
    Additionally, NCVA adjusted our examination procedures in 
2011 to require the formal review of credit union loan 
modification and foreclosure procedures during all examinations 
in 2011. To date, NCVA has identified only isolated exceptions 
or issues raised during the servicing reviews.
    While NCVA does not consider this a system-wide concern for 
credit unions at this time, the ongoing discussions between 
bank regulators, State attorneys general, and the largest 
servicers have the potential to set new standards for mortgage 
servicing. Any agreement would likely create a new set of best 
practices for all servicers, including credit unions, to 
follow.
                                ------                                


       RESPONSES TO WRITTEN QUESTIONS OF SENATOR MERKLEY
                        FROM BILL CHENEY

Q.1. Servicing Rights, Foreclosure, and Member/Customer 
Relationship--I've heard from my Oregon credit unions about the 
importance of being able to securitize loans while retaining 
the servicing rights, which is where the member relationship is 
important. In that servicing relationship, credit unions--and 
community banks--who hold servicing rights must have seen some 
foreclosures and other problems. Can you share any insight on 
the experience of credit unions and community banks that do 
hold servicing rights in working out problematic loans? In your 
experience, are credit unions and community banks more willing 
to follow basic practices like having a single point of 
contact, stopping the dual track of modification and 
foreclosure, and utilizing third-party review for modification? 
Anything you can share will be enlightening as we go through an 
important national debate about what can be done now to fix the 
terrible foreclosure crisis harming our families and dragging 
our economy down.

A.1. No response provided.
                                ------                                


       RESPONSES TO WRITTEN QUESTIONS OF SENATOR MERKLEY
                        FROM NOAH WILCOX

Q.1. Servicing Rights, Foreclosure, and Member/Customer 
Relationship--I've heard from my Oregon credit unions about the 
importance of being able to securitize loans while retaining 
the servicing rights, which is where the member relationship is 
important. In that servicing relationship, credit unions--and 
community banks--who hold servicing rights must have seen some 
foreclosures and other problems. Can you share any insight on 
the experience of credit unions and community banks that do 
hold servicing rights in working out problematic loans? In your 
experience, are credit unions and community banks more willing 
to follow basic practices like having a single point of 
contact, stopping the dual track of modification and 
foreclosure, and utilizing third-party review for modification? 
Anything you can share will be enlightening as we go through an 
important national debate about what can be done now to fix the 
terrible foreclosure crisis harming our families and dragging 
our economy down.

A.1. No response provided.
                                ------                                


       RESPONSES TO WRITTEN QUESTIONS OF SENATOR MERKLEY
                      FROM MICHAEL LUSSIER

Q.1. Servicing Rights, Foreclosure, and Member/Customer 
Relationship--I've heard from my Oregon credit unions about the 
importance of being able to securitize loans while retaining 
the servicing rights, which is where the member relationship is 
important. In that servicing relationship, credit unions--and 
community banks--who hold servicing rights must have seen some 
foreclosures and other problems. Can you share any insight on 
the experience of credit unions and community banks that do 
hold servicing rights in working out problematic loans? In your 
experience, are credit unions and community banks more willing 
to follow basic practices like having a single point of 
contact, stopping the dual track of modification and 
foreclosure, and utilizing third-party review for modification? 
Anything you can share will be enlightening as we go through an 
important national debate about what can be done now to fix the 
terrible foreclosure crisis harming our families and dragging 
our economy down.

A.1. No response provided.
                                ------                                


       RESPONSES TO WRITTEN QUESTIONS OF SENATOR MERKLEY
                     FROM STEPHEN P. WILSON

Q.1. Servicing Rights, Foreclosure, and Member/Customer 
Relationship--I've heard from my Oregon credit unions about the 
importance of being able to securitize loans while retaining 
the servicing rights, which is where the member relationship is 
important. In that servicing relationship, credit unions--and 
community banks--who hold servicing rights must have seen some 
foreclosures and other problems. Can you share any insight on 
the experience of credit unions and community banks that do 
hold servicing rights in working out problematic loans? In your 
experience, are credit unions and community banks more willing 
to follow basic practices like having a single point of 
contact, stopping the dual track of modification and 
foreclosure, and utilizing third-party review for modification? 
Anything you can share will be enlightening as we go through an 
important national debate about what can be done now to fix the 
terrible foreclosure crisis harming our families and dragging 
our economy down.

A.1. No response provided.
              Additional Material Supplied for the Record

LETTER SUBMITTED BY PAUL HAZEN, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
               NATIONAL COOPERATIVE BUSINESS ASSOCIATION

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
